<html>
<title> - IS THE VA PREPARED TO MEET THE NEEDS OF OUR RETURNING VETS?</title>
<body><pre>[Senate Hearing 109-218]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-218
 
      IS THE VA PREPARED TO MEET THE NEEDS OF OUR RETURNING VETS?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 6, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-578                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                      LARRY CRAIG, Idaho, Chairman
ARLEN SPECTER, Pennsylvania          DANIEL K. AKAKA, Hawaii, Ranking 
KAY BAILEY HUTCHISON, Texas              Member
LINDSEY O. GRAHAM, South Carolina    JOHN D. ROCKEFELLER IV, West 
RICHARD BURR, North Carolina             Virginia
JOHN ENSIGN, Nevada                  JAMES M. JEFFORDS, (I) Vermont
JOHN THUNE, South Dakota             PATTY MURRAY, Washington
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
                                     KEN SALAZAR, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                              July 6, 2005
                                SENATORS

                                                                   Page
Obama, Hon. Barack, U.S. Senator from Illinois...................     1
Durbin, Hon. Richard J., U.S. Senator from Illinois..............     3

                               WITNESSES

Herres, Stephen, Vietnam Veteran.................................     6
    Prepared statement...........................................     7
Lynch, Alan J., Chief Sertvice Representative, Vietnam Veterans 
  of America.....................................................     9
    Prepared statement...........................................    10
Aument, Ronald, VA Deputy Under Secretary for Benefits...........    13
    Prepared statement...........................................    15
Crump, Rochelle, Assistant Director, Illinois Department of 
  Veterans' Affairs..............................................    16
Petrosky, Joseph, Director, Veterans Affairs and Rehabilitation 
  Office, The American Legion....................................    29
    Prepared statement...........................................    30
DiGrazia, Carl, Department Service Officer, Veterans of Foreign 
  Affairs........................................................    32
    Prepared statement...........................................    33
Douglas, Jeanne, Team Leader, Vet Center, Oak Park, Illinois.....    33
    Prepared statement...........................................    35
Hetrick, Jack, Director, Hines VA Hospital.......................    36
    Prepared statement...........................................    38


      IS THE VA PREPARED TO MEET THE NEEDS OF OUR RETURNING VETS?

                              ----------                              


                        WEDNESDAY, JULY 6, 2005

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room 2525, Everett McKinley Dirksen Building, 219 South 
Dearborn Street, Chicago, Illinois, Hon. Barack Obama 
presiding.
    Present: Senators Obama and Durbin.

            OPENING STATEMENT OF HON. BARACK OBAMA, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Obama. Good morning, everybody.
    I would like to bring our field hearing to order, and I 
want to thank all of you for taking the time to join myself and 
Senator Durbin today. I want to also thank Chairman Larry Craig 
and Ranking Member Danny Akaka of the Senate Veterans' Affairs 
Committee, for allowing us to hold this field hearing in 
Illinois.
    I particularly want to thank my senior senator from 
Illinois, Dick Durbin, for joining us here today. He will be 
here for the entire first panel. He may have to leave a little 
bit early, but we are fortunate to have him. I want to remind 
everybody that he is more senior than I am. The only reason 
that I am presiding today is I happen to be on the Veterans' 
Affairs Committee. But Senator Durbin has been working on this 
issue, making sure that veterans get the benefits that they 
deserve for a very, very long time, so we appreciate his 
service. He will have an opportunity to make an opening 
statement.
    As of yesterday, 13,190 men and women had been wounded in 
Operation Iraqi Freedom; 13,190 husbands, wives, mothers, and 
fathers, who will return home from service with scars that may 
change their lives forever. They are heroes and they deserve 
our deepest gratitude and support. They serve as a reminder to 
us that this Committee, the Veterans' Affairs Committee, must 
do whatever it takes to guarantee that our veterans receive the 
care they need to carry on with their lives when they come 
home.
    That means the VA and the Department of Defense must work 
together to provide more efficient vocational and 
rehabilitation services. It means insuring that we have the 
capacity to treat specific needs, like soldiers returning home 
with post-traumatic stress syndrome. It means that veterans who 
are wounded should be greeted with a disability benefit system 
that treats a veteran from Illinois the same as a veteran from 
New Mexico, both getting a fair evaluation of their claim and a 
fair amount of disability benefits.
    As we all know, our preparation for the wars in Iraq and 
Afghanistan did not adequately consider what these wars would 
mean for our Department of Veterans' Affairs. Just last week, 
we learned that the VA was more than one billion dollars short 
in its health-care funding. That is more than a billion dollars 
in VA doctors' visits or veterans' prosthetics that could have 
gone without funding. Fortunately, on a bipartisan basis, we 
were able to initiate an emergency supplemental. But the VA 
almost had to fill this shortfall by shuffling around some of 
its funding or dipping into its rainy day fund.
    Now, I know that some of the VA said that this was just 
routine accounting, but the men and women in the Senate thought 
it was a little bit more like fudging the numbers. One of the 
things that we are looking for is a strong partnership with the 
Veterans' Administration, to make sure that we are adequately 
estimating the resources that are needed to provide basic care 
to our veterans.
    Let me be clear. The Department of Veterans' Affairs should 
not be funded on an emergency basis. The Office of Management 
and Budget and the Administration have to work harder to ensure 
that the budgetary numbers presented to Congress are accurate, 
and the fiscal predictions are based not on wishful thinking, 
but on reality. Even though we have cleared this recent 
budgetary crisis, it is not obvious to me that the VA is where 
it should be for our veterans returning from Iraq and 
Afghanistan, or for any of our Nation's veterans. I am pleased 
to see that Senator Nicholson has been responsive on the issue 
of disability benefits, after repeated requests from myself and 
Senator Durbin, but we still have more work to do.
    Just a couple of other points that I want to make, and then 
I will turn it over to Senator Durbin. All of us, I think, were 
dismayed, but not terribly surprised to see that Illinois had 
ranked at the bottom of the heap with respect to disability 
benefits, based on the VA Inspector General's report.
    I was concerned that the Inspector General did not evaluate 
the denials of post-traumatic stress disorder claims. Unless 
these denials are evaluated, we will not know whether Illinois 
veterans who are refused PTSD claims are being treated fairly. 
The report also found that those veterans who relied on the 
services of Veterans' Advocates received on average more than 
$6,225 than those who filed claims without any assistance, 
which speaks, I think, to the important role that the VSO's 
play in making sure our veterans are treated fairly.
    I hope that some of the information that has been gleaned 
from these reports will help our veterans. We are going to stay 
on the case, with respect to Secretary Nicholson. My 
understanding is that Secretary Nicholson has added five raters 
to the Chicago Regional Office, and that's something that I am 
sure we can talk to Mr. Olson about.
    I hope today that we can learn more about the Illinois 
experience with disability benefits, how the VA is handling 
those who would like to have their claims reviewed, and whether 
the VA is prepared to handle the returning veterans.
    One other issue that we hope to discuss today, and this 
will be the focus in particular of the second panel, is whether 
the VA is prepared to meet the health-care needs of our 
returning veterans. As I mentioned, we already have seen an 
underestimation of resources that are needed, that had to be 
filled by an emergency spending gap. I know veterans have 
difficulty getting access to VA care and I don't want the men 
and women risking their lives in Iraq and Afghanistan to return 
home to be greeted by a system that tells them thanks for 
fighting for your country, now take a number.
    We have to start evaluating the needs of the returning 
veterans. I know many experts have predicted the veterans 
returning from Iraq will be particularly susceptible to PTSD, 
and the Government Accountability Office recently found that 
the VA may not be prepared to meet these increased mental 
health needs. I hope the witnesses on the second panel can 
discuss the issue of PTSD and the need of our returning 
veterans.
    In addition to PTSD, this war has also seen an increase in 
the number of serious amputees. Brave men and women who may not 
have survived earlier wars are now surviving thanks to advanced 
technology. They have a chance not only to survive, but live 
normal lives.
    A good example that Senator Durbin and myself are familiar 
with, Illinois Guard member, Major Tammy Duckworth, an 
extraordinary woman who was injured when her Blackhawk 
helicopter was shot down last year. She appeared before the 
Senate VA Committee, told us not only how she had received 
therapy, but how she was hoping to fly again despite the loss 
of both legs. Given her bravery and determination, I have no 
doubt that she will, but I want to make sure that the VA has 
the prosthetic therapy and devices she needs to succeed in her 
life goals. I also want that same service available to all our 
veterans. I hope that the witnesses in the second panel will be 
able to discuss the issue of prosthetics, as well.
    I know we could discuss the topics that I have just raised 
for weeks here, but unfortunately we only have 2 hours. I am 
going to be asking the witnesses to keep their testimony to 5 
minutes each, and then myself and Senator Durbin will ask 
questions. We will be happy to enter into the record complete 
statements from all the witnesses, if they wish. If your 5 
minutes are up, we don't have an official timer other than me, 
so I am going to be watching my watch. But if you have 
additional statements that you want to put into the record, you 
will be able to do so.
    With that, let me turn it over to my senior Senator, 
Senator Dick Durbin.

         OPENING STATEMENT OF HON. RICHARD J. DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Senator Obama. We 
welcome you to the Senate, and you came to the Senate at the 
right moment in being appointed to the Senate Veterans' Affairs 
Committee. I don't think there has ever been a moment in recent 
memory when Illinois veterans have needed such a strong voice 
in Washington.
    The reports that we have received about some of the 
disabled veterans who have been shortchanged in Illinois--the 
fact that for 20 straight years, Illinois veterans ranked 
fiftieth out of 50 states when it came to average disability 
payments--really tells us the need for response. Senator Obama 
came to the job even before he was sworn in, understood the 
gravity of this challenge, asked for appointment to the 
Committee on Veterans' Affairs, and we joined together in 
bringing Secretary Nicholson to Chicago once the report was 
complete.
    I salute Secretary Nicholson because as I said at that 
hearing, this problem was not his creation but it's his 
leadership that can solve this problem. We were happy at that 
hearing to have so many veterans' organizations back us up. 
They came and said, ``We need to have two things: We need more 
people working in this office so that the veterans returning 
are going to be dealt with on a timely basis.'' As Senator 
Obama said, it shouldn't be a matter of take a number, and get 
in line and wait, and hope for the best.
    We also need to make certain there's enough advocacy for 
the veterans who are disabled. We find that those who have an 
advocate with them, a counselor with them going into the VA 
system, do dramatically better than those that go in by 
themselves and try to handle their claims. We certainly want to 
make certain those veterans of the past, who have filed 
disability claims and been shortchanged by the system, have 
another day in court, another chance for an appeal. So they can 
be treated fairly and receive exactly what they need.
    We are concerned, too, about the returning soldiers from 
Iraq and Afghanistan. The Veterans' Affairs budget documents 
projected that 23,553 veterans would return this year from Iraq 
and Afghanistan and seek medical treatment. However, Veterans' 
Affairs Secretary Jim Nicholson told the Senate Committee, now 
there's been advised upwards from 23,000 to 103,000 for the 
fiscal year that ends September 30.
    In other words, more than four times as many soldiers are 
coming back from Iraq and Afghanistan needing help in the VA 
system. More than four times what the VA anticipated. This year 
the VA will process 80,000 more Iraq and Afghanistan veteran 
patients than expected. As surprising as that is, that actually 
represents only 1.6 percent increase in the nearly five million 
patients treated by the VA.
    One might expect a system as big as the VA to be able to 
absorb a 1.6 percent increase. But as Senator Obama said, we 
have learned to our dismay, just last week, that the Veterans' 
Administration is under funded by at least a billion dollars, 
maybe a billion-and-a-half. After assuring us for months that 
this was not a problem, they finally acknowledged that it is a 
problem. They just don't have the resources to help our 
veterans as promised. They have told us that the wait times 
were null with the VA. That is not what we are hearing from 
veterans. We understand the wait times need to be dramatically 
improved.
    Let me say, as well, that I am concerned about a lot of 
people who are coming into the system. Roughly 1.1 million 
American troops have served in Iraq and Afghanistan. Already of 
the 360,000 who have been discharged, 24 percent, about one out 
of four, have come to the VA for medical care. If that ratio 
continues to hold and we continue with the military commitment 
we have made overseas, we might see a VA patient increase 
roughly three times the size of the one that caused the one-
billion-dollar shortfall.
    We promised these men and women, if they would serve our 
country and risk their lives, we would stand behind them when 
they came home. We have to keep that promise. Our challenge for 
the future is to not only meet the needs of the expanded 
veteran population, but to make sure we never compromise the 
quality of care for veterans in the system.
    In the Senate, Senator Obama and I have joined together in 
passing a $1.5 billion supplemental appropriation bill, which 
was sent to the House of Representatives. It was a very 
bipartisan bill. I don't think there was a negative vote. It 
was an amendment offered first by Senator Patty Murray, 
Democrat of Washington, Senator Santorum, Republican of 
Pennsylvania. Came together in a bipartisan effort. 1.5 
billion. Frankly, the speeches on the floor told the story. 
They said before you go home for the Fourth of July parade, do 
something for the veterans. And so we passed it.
    It went over the House of Representatives where they cut 
the amount to be added to the VA to around $950 million, a 
pretty dramatic cut over the Senate figure, which we believe 
the VA had made clear they need it. As we left Washington, it 
was still unresolved between these two numbers. When we return 
next week, that number has to be resolved.
    We need to talk to the President about making sure the 
budget is going to be accurate in the future, and we are 
responsive. We need to make certain that we move forward on 
mandatory funding for veterans' health care. We need to develop 
legislation, as Senator Obama has said, to deal with post-
traumatic stress disorder.
    I mentioned to Senator Obama that I had a series of 
hearings around the State, and I have done this on many 
different issues at many different times. I have never had a 
more compelling hearing than those with the returning soldiers 
from Iraq and Afghanistan. Some of the best and brightest in 
Illinois and America, who come back with no visible scars, but 
have invisible scars from some of the things that they have 
seen and done and witnessed and gone through. They need 
counseling. They need help, as do their families. If we don't 
provide them help, the situation will only get worse. Of 
course, we are pressing the VA to respond to the specific needs 
in Illinois for our veterans, based on the Inspector General's 
report.
    As helpful as these actions may have been, there's a lot 
more work to do. We listened to a lot of experts in Washington. 
Today we are going to hear from the real experts, the veterans 
of Illinois, and I thank Senator Obama for this hearing.
    Senator Obama. Good. Thank you so much, Senator Durbin.
    Our first witness is Mr. Stephen Herres, a veteran who's 
experienced directly the disability benefit system and some of 
its failings.
    Mr. Herres, we very much appreciate your taking the time to 
be here. If you could just introduce yourself and tell us a 
little bit about your story.

          STATEMENT OF STEPHEN HERRES, VIETNAM VETERAN

    Mr. Herres. I am a Vietnam veteran and I proudly served my 
country in the U.S. Marine Corp for 9\1/2\ years.
    Before I begin my testimony, though, I would like to thank 
my advocate, Mr. Alan J. Lynch, without whose many hours of 
dedication and continued support, I would not be here today.
    While I was on active duty, I had a safe fall on my knee 
injuring it permanently, and in May 1974 my hands were crushed 
between an aircraft tow tractor and a mechanical lift.
    I filed a claim with the VA in March 1980 for my knees and 
my hands, and I was awarded 10 percent disability on my knee. 
Upon reevaluation without the actual exam, in 1981 the VA took 
back the 10 percent that they gave me for my knee. With the 
assistance of Senator Durbin's office in 2001, I was reexamined 
and I was reinstated with the 10 percent on my knee.
    In August 2002, I contacted Mr. Lynch. He advised that I 
see an outside orthopedic surgeon, who ordered both an MRI and 
bone scans on me. The VA's MRI found only an abnormal knee, 
while the MRI of the independent doctor noted degenerative 
joint disease throughout the knee, with nine points of 
degeneration.
    On my exam of March 18 at the Hines VA office, I brought my 
bone scans for the VA to see. I thought I would be seeing a 
doctor. A nurse practitioner, Karen Clark, saw me. She refused 
to even look at the bone scan, stating that bone scans are 
worthless and only her x-rays and her opinion mattered.
    My case was sent to Washington, DC on appeal on April 27 of 
2004. They returned my file to Chicago on remand in August of 
2004. The remand, signed by Federal Judge Flowers, stated that 
an orthopedic surgeon see me. My exam was scheduled September 
21, 2004, and instead, I was seen by Physician Assistant 
Terence Kenton, who did not follow the directions of the 
remand.
    On the Statement of Case of October 1, 2004, under the 
evidence, it is stated that I failed to report for an exam on 
August 4, 2004. I was never scheduled for an exam on August 4, 
2004. At the assistance of Mr. Lynch, I was rescheduled in 
accordance with the remand to see an orthopedic surgeon on 
December 28, 2004.
    The clear and unmistakable errors of the 1981 
discontinuance of my disability on my left knee and the 1980 
failure of the VA to process a claim for the crush wounds to 
both hands, were returned to Mr. Olson on May 25, 2005 for 
proper action. It was passed down through the chain of command 
to a rating specialist that denied my entire claim. He ignored 
all the documentation and evidence from the last 4\1/2\ years, 
to even include the findings of the VA's own orthopedic 
surgeon, dated December 28, 2004.
    After referring back to the injury to the knee while on 
active duty, she stated in her findings: ``Diagnosis: 
Degenerative arthritis of the left knee.'' By denying the clear 
and unmistakable error on my left knee, the rating specialist 
would have you believe that my knee was completely healed and 
then mysteriously came back after 20 years. The evidence and 
the documentation proved just the opposite.
    On the crush wounds to my hands, my military medical file 
states, on November 14, 1974, ``Diagnosis: Patient has 
arthritis to the joints of both hands from post-crush wounds.'' 
Referring back to the crush wounds received on May 9, 1974, the 
VA's own orthopedic surgeon verified this condition in her exam 
of December 28, 2004. She states in her diagnosis, ``post 
traumatic arthritis of the MP PIP and DIP joints of the index, 
middle, ring and little fingers of both hands.'' After more 
than 25 years, the VA still refuses to acknowledge the crush 
wounds to these hands. The deliberate arrogance and gross 
incompetence of the rating specialist in the handling of my 
case is indicative of and fostered by management at the highest 
levels of the Chicago VA office. I am sure that there are many 
honest, hardworking individuals working there. I am just as 
sure that there are many individuals like the rating 
specialist, who for many Illinois veterans and their families, 
such as my wife and I, have suffered years of anguish and 
hardship. This must not go unnoticed, nor without 
repercussions.
    Everyone in this room is indebted to veterans, past, 
present, and future, for the freedom that they enjoy. No 
veteran, when going to the VA for a disability claim, should 
ever feel that he or she is at war. We have been there. We have 
done that. For that, we have served our country honorably, and 
we deserve and demand your respect. For that, for all the 
positive changes that will occur at the Chicago VA office as a 
direct result of today's hearing, in both personnel and policy, 
on behalf of all Illinois veterans, present and future, and 
their families, I extend to all of you their deepest gratitude 
and their most sincere thanks. Thank you, gentlemen.
    [The prepared statement of Stephen Herres follows:]

         Prepared Statement of Stephen Herres, Vietnam Veteran

    I am a Vietnam Vet. I proudly served my country in the United 
States Marine Corp. for 9 yrs. and 6 mos. Before I begin my testimony, 
I would like to thank my advocate Mr. Allen J. Lynch without whose many 
hours of dedication and continued support I would not be here today.
    1. Tell of (2) injuries received on active duty. Knee (Field Safe 
security chain not in Place) Nov. 1969 Cherry Point., N.C; Hands (Crush 
Wounds) May 9, 1974 Beaufort S.C.
    2. Filed claim on March 31, 1980 for knee and hands.
    Exam Sept. 19, 1980. Received 10 percent disability on knee.
    3. Re-evaluated in Sept. 1981. The individual giving the exam said:
    ``Let me see your hands.'' I showed him my hands and he said he 
didn't see any arthritis. He then told me to walk about 10, and back: 
then replied: ``I don't see anything wrong with your knee.'' He asked 
where I worked; I replied the Post Office. He then said: ``you have 
good insurance and collecting disability would threaten your job.'' He 
advised me to use my insurance and don't come back. Shortly after my 
disability payment stopped.
    4. Contacted Senator Durbin February 22, 2001.
    5. On May 21, 2001 Mr. Vernon from Senator Durbin's Office said 
that Mr. Heinz of the VA was still insistent that I never received any 
disability from the VA and such a file simply does not exist. Mr. Heinz 
stated that a thorough search was made and my file could not be found. 
I had to prove that I had received a disability using my Form 15 U.S. 
Civil Service Commission claim 10 point Veteran preference from my 
personal file from my place of employment.
    6. With Senator Durbin's assistance, it took 6 months for the VA to 
schedule an appointment for an exam. The exam took place on August 7, 
2001. Although the condition of the knee and wrists were confirmed on 
September 5, 2001 and I was paid back to August of 2001, payment for my 
knee was not received until March 26, 2002, and not received for my 
wrists until February 15, 2003.
    7. On August 22, 2002 I contacted Mr. Allen J. Lynch. He advised 
that I see an independent doctor. I saw an Orthopedic Surgeon. He wrote 
two orders, one for a MRI and another for complete bone scan. Although 
the VA's MRI found only an abnormal knee; the independent doctor noted 
degenerative joint disease throughout the knee 9 points of 
degeneration. My personal physician wrote: Decreased handgrip and 
deformity in the MP, and PIP joints.
    8. After every exam I would return back to obtain a copy of their 
report and write a letter of disagreement. The VA consistently 
misquoted me and wrote their own version of the facts.
    9. On my exam of March 18, 2003 I brought my bone scan for the VA 
to see. I thought a doctor would see me. A Nurse Practitioner Karen 
Clark saw me. She refused to look at the bone scan stating that bone 
scans are worthless and only her x-rays and her opinion mattered.
    10. My case was sent to Washington D.C. on Appeal April 27, 2004. 
Washington returned my file to Chicago on Remand August 17, 2004. The 
remand, signed by Federal Judge Flowers stated that I see an Orthopedic 
Surgeon. My exam was scheduled for September 21, 2004 and I was seen by 
Physician Assistant Terrence Kenton. He did not follow the directions 
of the remand.
    11. On the statement of case dated October 1, 2004 under evidence 
it is stated that I failed to report for an exam on August 4, 2004. I 
was never scheduled for an exam on August 4, 2004.
    12. On October 15, 2004 Mr. Lynch contacted Mr. Keith M. Wilson, 
Director Appeal Management Center in Washington, D.C. and Mr. Michael 
Stephens, Veterans Service Center Manager, Chicago, IL on the August 
4th issue.
    13. On November 15, 2004, Mr. Lynch again contacted Mr. Stephens 
requesting that another exam be scheduled in accordance with the 
remand.
    14. On December 28, 2004 I had another exam at Hines Hospital. I 
was examined by an Orthopedic Surgeon.
    15. The Clear and Unmistakable Errors on the 1981 discontinuance of 
disability payments on my left knee and on the 1980 failure of the VA 
to process a claim for crush wounds to both bands were returned to Mr. 
Olson, Director of Chicago Office on May 25, 2005 for proper action. 
Mr. Olton gave my file to Mr. Larry Rogers, Chief ACT Team; he in turn 
gave my file to a rating specialist for rating. The rating specialist 
denied my claim. Ignoring the documentation gathered over the last 4\1/
2\ yrs. To even include the findings of the VA's own Orthopedic Surgeon 
of December 28, 2004. After referring back to the injury of the knee 
while on active duty, she stated as her findings: ``Degenerative 
arthritis of the left knee.''
    By denying the clear and unmistakable error on my left knee the 
rating specialist would have you believe that my knee was completely 
healed and injury came back after 20 years. The evidence and the 
documentation of the VA own Orthopedic Surgeon proves just the 
opposite. On my crush wounds to hands; my military medical file states 
on November 14, 1974 the diagnosis: ``Patient has arthritis to joints 
of both hands from past crush wounds.'' Referring back to the crush 
wounds received on May 9, 1974; the VA's own Orthopedic Surgeon 
verified this condition in her exam of December 28, 2004.
    She states: ``Post traumatic arthritis of the MP, PIP, and DIP 
joints of the index, middle, ring, and little fingers of both hands. 
After more than 25 years, the VA still refuses to acknowledge the crush 
wounds to my hands.''
    16. The rating specialist's deliberate arrogance and gross 
incompetence in handling my case is indicative of, and fostered by 
management at the highest levels of the Chicago VA Office.
    I am sure that there are many honest hard working individuals in 
the Chicago VA Office. I am just as sure that there are too many other 
individuals like the rating specialist at whose cold and callus hands 
many Illinois Veterans and their families have suffered years of 
anguish and hardship. This must not go unnoticed nor without 
repercussions. Every person in this room is indebted to veterans past, 
present, and future for the freedom they enjoy. No Veteran while 
pursuing a disability claim with the VA should ever feel that he or she 
is at war. We have been there and served our country honorably. For 
that; we have earned and demand your respect! For all the positive 
changes in personnel and policy at the Chicago Regional VA Office as a 
direct result of today's hearing; on behalf of all Illinois, Veterans 
present and future and their families I extend their deepest gratitude 
and most sincere thanks. Thank you, gentleman.

    Senator Obama. Thank you very much, Mr. Herres, for your 
eloquent testimony. We are going to go through all the 
witnesses first, and then Senator Durbin and myself will come 
back to you to ask some questions.
    Next we have got Mr. Al Lynch, Chief Service 
Representative, Vietnam Veterans of America. I should just 
mention, I hope you don't mind me mentioning, Mr. Lynch, that 
he is a Metal of Honor winner and somebody who has gone above 
and beyond the call of duty with respect to protecting this 
country.
    Mr. Lynch.

   STATEMENT OF ALAN J. LYNCH, CHIEF SERVICE REPRESENTATIVE, 
            VIETNAM VETERANS OF AMERICA, CHICAGO, IL

    Mr. Lynch. Thank you. First, I want to thank you for having 
this hearing today. I also want to commend the Department of 
Veterans' Affairs at the Chicago Regional Office for the work 
they have done to improve. Since 1998, I believe, they have 
gone from fiftieth, the bottom of the stack, up to about 25, 23 
in benefits returned. They have made a lot of progress. I must 
say, too, that a lot of the problems that have been created at 
the Chicago Regional Office are not really the fault of the 
Chicago Regional Office. I wasn't made aware of this until a 
few weeks ago.
    Several years ago there was a major RIF in the Chicago 
office. A number of people were laid off, clerks, typists, 
adjudicators, rating specialists, and so on. The amount of 
staff reduced, the workload didn't. That's why we have 21 
percent of the cases being, I think they call it brokered out, 
to other regional offices. The waiting times have increased at 
the Chicago office as a result of this. If you want to look as 
to why the Chicago office is having troubles with timeliness 
and waiting times and so on, look to Central Office. They are 
the ones that reduced the staff.
    What I was told was that there is a 16 percent pay 
differential for rating specialists and staff members of the 
Chicago office. It's a lot cheaper for the VA to go to Arkansas 
or wherever else, where the cost-of-living is low, and fully 
staff those offices, at the same time reducing the staff at the 
Chicago office. So much of the problem is not their fault.
    However, year after year, those of us that are veteran 
advocates have to deal with the same, it seems, the same small, 
very small group of rating specialists who are consistent in 
their inability to properly rate claims. This is something that 
has gone on for as long as I have been there. I have been doing 
this for 20 years as a veterans advocate, and we continuously 
see the same names pop up and the same types of rating 
decisions that are, frankly, viewed under the narrowest of 
criteria. Even the Congress wrote the law that says that the VA 
will administer the laws under a broad criteria, and yet these 
few specialists view it under a very narrow criteria.
    The problem is, when you have a regional office that has 
had a shrinkage of the number of staff members, these few 
rating specialists now do much more work under much more 
pressure than they have ever had to do before. Consequently, 
the number of cases that they do are increased, and so their 
impact on the veteran community is increased. I would maintain 
that there needs to be something done, as far as a 
disincentive, for these rating specialists to be able to 
continue on as they are.
    Now, I don't know the inner workings of the VA. All I know 
is what I see. When I see the same rating specialists sitting 
in the same desks, doing the same job year after year after 
year, that says to me that nothing is being done to foster a 
change in attitude and a change in the way they rate. When I 
see rating specialists, that we have come to know and love as 
being the narrowest minded of rating specialists, being 
promoted into areas of greater responsibility, team leaders in 
the ACT team, maybe even DRO's, decision review officers, that 
says to me that they are being rewarded for their narrow view 
of the law. A law that you wrote to be broad in its 
application.
    I would submit that there must be some way of 
accountability, individual accountability, on individual rating 
specialists that continue to do this. When you have a remand, 
an overturn rate, from the Board of Veteran Appeals that passes 
60 percent up into 70 percent, I would suggest that there is 
something drastically wrong with an office that allows that to 
continue. Any office, not just Chicago, but any office. If we 
had cars on the road, 60 percent of which were being recalled, 
the auto manufacturer would go out of business.
    I'd submit that a remand sent back to a regional office for 
further work say that somebody didn't do their job effectively 
before it was sent forward. I would submit that an overturn 
rate, or an award rate, at the Board of Veteran Appeals, or 
through the Court of Veteran Appeals say that there were some 
mistakes made.
    Now, there are disagreements. I have had very good rating 
specialists that I have great respect for, who I have disagreed 
with. I look forward sometimes, if I may, to their overturning 
cases because I know I am going to be in for a real good fight. 
Frankly, I enjoy my job quite a lot. I like a good fight and I 
like to match my wits against a good quality rating specialist 
that's done his job well.
    Some of these I can't say that for. I know that I am going 
to appeal as soon as I see the name on the rating decision, and 
I know that I am going to win at the Board of Veteran Appeals. 
This really needs to be stopped because these are people. These 
are people that we are dealing with that have pain and 
suffering, as you heard from Mr. Herres. His hands are all 
gnarled. We have been trying for almost 5 years to get the VA 
to do one simple thing, look at his hands. How can you not look 
at his fingers and see them gnarled, and not know that he's 
disabled as a result of that. We even sent them colored 
pictures, and they failed to do it.
    Three years ago, when we started this thing, I sent a very 
detailed memo to the Chief Service Center Manager. I believe it 
was Carrie Witty. With the whole idea of ``just take a second 
look at this, just read the file.'' They didn't do it, and so 
we ended up in appeal. This has to change.
    Again, there's so many very, very good people at the 
Chicago office that do a great job, but these few slip through 
and they have a tremendous impact on the veteran community. 
Thank you.
    [The prepared statement of Alan J. Lynch follows:]

  Prepared Statement of Alan J. Lynch, Chief Service Representative, 
                Vietnam Veterans of America, Chicago, IL

    I am Allen J. Lynch, Chief Service Representative for the Vietnam 
Veterans of America Illinois State Council I am also the Chief, Veteran 
Rights Bureau, Office of Illinois Attorney General, Lisa Madigan. I 
have been working in the area of veteran affairs since 1970 when I 
started with the VA as a Veterans Benefits Counselor. I left that 
position in 1979 to become the Chief Ambulatory Care at the North 
Chicago VA Medical Center. In 1980 I became the Executive Director of 
the Vietnam Veterans Leadership Program. Then in 1985 I became the 
Chief of the Veteran Rights Bureau under then Attorney General Neil 
Hartigan I have been the Chief of Veteran Rights bureau since that 
time.
    In 1991 I attended the VVA Service Representative School in 
Washington, DC and became a VVA Service Representative a few years 
latter I became the Chief Service Representative for the VVA Illinois 
State Council. I also assist veterans with appeals as a part of my 
position within the Attorney General's office. I am allowed to do this 
because claims before the VA are not adversarial. Since becoming a WA 
Service Representative I have handled numerous of claims before the VA 
and the Board of Veteran Appeals. Most of the claims I assist with are 
already in the appeal process.
    Over the last several months the Chicago VA Regional Office has 
come under fire for its ranking last in the amount paid out to Illinois 
veterans in the form of compensation benefits. According to the 
recently released IG report, this ranking is no longer the case and in 
fact the Chicago office has moved from 44th in 1999 to 23rd in 2004. 
This is a substantial move in ranking and one in which the Regional 
Office should be proud of achieving. The Regional Office has also moved 
up in the accuracy of the claims it processes--again a great 
achievement and one that the staff of the Regional Office should be 
proud of achieving. It is therefore a disservice to those who have 
worked so hard to achieve these goals to be lumped in with those few 
still within the Chicago Office who work at a substandard level.
    Make no mistake there are still problems that need to be addressed 
within the Chicago VA Regional Office. As a Veterans Service 
Representative for VVA and in my position with the Illinois Attorney 
General's Office I am well aware of the fact that there are still those 
Rating Specialists within the Regional Office who consistently persist 
in disobeying the law and its intent as written by you in the Congress 
and further codified by the VA in the Code of Federal Regulations. The 
best indication of how the VA is to govern its laws and regulations is 
found at 38 CFR Sec. 3.102 Reasonable doubt which states in pertinent 
part.
    It is the defined and consistently applied policy of the Department 
of Veterans' Affairs to administer the law under a broad 
interpretation, consistent, however, with the facts shown in every 
case. When, after careful consideration of all procurable and assembled 
data, a reasonable doubt arises regarding service origin, the degree of 
disability, or any other point, such doubt will be resolved in favor of 
the claimant. (Emphasis added)
    Yet there are still a few Rating Specialists who take it upon 
themselves to disavow the law as you wrote it and as the VA codified it 
in the CFR and who choose instead to apply the law under their own 
narrow set of criteria that flies in the face of your and the VA 
intent.
    It is true that most of the employees of the Chicago Regional 
office are capable, competent and work hard to administer the intent of 
the law as codified in both the 38 U.S.C. and the 38 C.F.R. However, 
that does not diminish the negative effect of those few Rating 
Specialists who do not obey the intent of the law. The impact of just 
one substandard Rating Specialist can impact thousands of veterans over 
the course of his/her employment with the VA. If he/she spends 25 years 
in the VA system rating claims and only rates one thousand claims a 
year over 25 years he/she would affect twenty-five thousand cases. If 
the Regional Office has three such raters seventy-five thousand cases 
would be rated. These are under estimates and do not reflect actual 
case work but are given as an example of the effect of those few who 
choose not to obey the law as you wrote it.

                           PROBLEM DEFINITION

    One may think that the Director of the Regional Office is at fault 
for all the problems that have found their way into the press recently. 
But upon review of the facts as given in the VA's IG report the 
Regional Office started to turn the corner in improving its processing 
of claims under Director Olsen. In point of fact problems within this 
Regional Office go back well over 20 years and several directors and 
several administrations both Republican and Democrat.
    I believe one of the major causes of the problems in processing 
claims at this office started several years ago when the Chicago office 
suffered a drastic reduction if force. As a result of this reduction in 
force those who were tasked with doing the ancillary work of claims 
processing, i.e., inputting awards, developmental letters and other 
such tasks were reduced in number. Under this reduction in force 
skilled adjudicators and rating specialists were allowed to retire 
without being replaced. This created an increased burden on an already 
over burdened system. Recently, I was informed that the reason the 
Chicago office is consistently understaffed is because of a 16 percent 
cost-of-living pay differential given in Chicago and other large 
cities. It seems, as I have been told, that it is just cheaper for the 
VA to broker out cases to other Regional Offices than to fully staff 
cities like Chicago. This ``going on the cheap'' by this and other 
administrations has directly affected the ability of the Chicago office 
to properly develop and adjudicate claims.
    This reduction in force should in no way, however take away the 
affect of the negative attitude of those few rating specialists who 
persist in taking an arbitrary and capricious view of veteran's claims. 
Those of us who serve as veteran's advocates know and can name those 
rating specialists who consistently either ``tow ball'' ratings or deny 
claims because of their own narrow view of the law and regulation. It 
is very disturbing that the Regional Office has persistently allowed 
these few Rating Specialists to continue in their positions even 
promoting some into positions of greater responsibility.
    The effects of those Rating Specialists who persist in their 
negative and substandard work greatly affect those whose cases they 
rate. We must never forget that these cases are after all real veterans 
who are coming to the VA because they believe they are suffering 
disabilities that occurred while they were in the military. I believe 
it is important to relate the effects of poor rating decisions upon 
those veterans affected. When a veteran's claim is denied 
inappropriately it directly affects his/her ability to live. One 
veteran in particular had to wait almost 4 years to finally win an 
appeal for 100 percent. During that time he lived in a terrible 
neighborhood. There were gunshots almost every night and he had to 
sneak down alley ways to go to a local 24-hour store to get food. His 
PTSD would not allow him to go out during the day so he hid in his 
basement apartment and would shop for food at 2 o'clock or 3 o'clock in 
the morning. Upon getting his 100 percent, he was able to move into a 
better neighborhood and though his PTSD persisted his quality of life 
improved.
    There are many other such stories where the VA has caused veterans 
undue hardship because of these few substandard Rating Specialists. One 
man had his fingers crushed in an accident while in the military. Year 
after year he complained to the VA about his fingers only to have them 
completely disregard medical evidence that supported his claim. He even 
sent them colored pictures of his gnarled fingers all to no avail. Most 
recently he filed a claim for a re-evaluation and a clear and 
unmistakable error. Only to have his claim again rated by one of the 
few substandard Rating Specialists who simply ``top page'' adjudicate 
and again denied the claim. We now have to go back into the appeal 
process and spend anywhere from 1 to 3 years in the appeal process on a 
claim that should have been awarded 20 years ago.

                             RECOMMENDATION

    Rating Specialists must be held individually accountable for 
inaccurate decisions. A simple system of reviewing for accuracy of the 
original decision cases that are either remanded or overturned by the 
Board of Veteran Appeals would be one way to accomplish this review. As 
much as it is inappropriate to deny veterans compensation and pension 
benefits because of personal biases it would be just as inappropriate 
to award veterans who do not qualify for disability. Clearly there must 
be some system put in place in which both awards and denials are 
reviewed by an independent third party.
    There must also be put in place a system whereby the rankings of 
the various VA Regional Offices are monitored. Those who have 
consistently low per capita awards should be reviewed for the 
appropriateness of their decisions. Conversely those with consistently 
high per capita awards should also be reviewed for the appropriateness 
to those decisions.
    There also need to be put in place a system that establishes 
continuity for awards/denials. Where decisions in a court are based 
upon precedent, decisions within the VA many times are not based upon 
anything except the individual Rating Specialist's interpretation of 
law and regulation. This is especially true in rating disabilities 
where judgment is needed.
    Finally the VA Regional Offices in major metropolitan areas need to 
be fully staffed. The VA's attempt to short change those veterans in 
States with major metropolitan areas by under staffing those Regional 
Offices is a travesty and must be changed. Only when Regional Offices 
are properly staffed will we see an increase in productivity and 
effectiveness.

                                CLOSING

    The Chicago Regional Office has come a long way in correcting how 
it rates claims. I strongly suggest however that it continues to weed 
out those substandard employees who persist in disobeying VA law and 
regulation. I further call upon the Congress to force the VA to 
properly staff the Chicago Regional Office and for that matter all 
Regional Offices that are in major metropolitan areas. Veterans in 
these States should not be short changed because of a cost-of-living 
differential. Finally, I commend the Chicago Regional Office for all 
the positive steps taken to improve its productivity and encourage it 
to continue to improve its service to veterans.

    Senator Obama. Thank you very much for that terrific 
testimony.
    Next we have Mr. Ronald Aument. Did I pronounce that 
correctly?
    Mr. Aument. Yes, sir.
    Senator Obama. Mr. Aument is the VA Deputy Under Secretary 
for Benefits. Mike Olson, Director of the Chicago VA Regional 
Office, is accompanying him. My understanding is, Mr. Aument, 
you're going to provide the testimony. Mr. Olson will be 
available here for questions, along with yourself, when we get 
to questions. Is that correct?
    Mr. Aument. That's correct.
    Senator Obama. OK. Please proceed.

   STATEMENT OF RONALD AUMENT, VA DEPUTY UNDER SECRETARY FOR 
   BENEFITS; ACCOMPANIED BY MICHAEL OLSON, DIRECTOR, CHICAGO 
            VETERANS ADMINISTRATION REGIONAL OFFICE

    Mr. Aument. Thank you, Senator Obama, Senator Durbin. Thank 
you for the opportunity to talk with you today about a critical 
benefit for veterans, disability compensation.
    This morning I will discuss the issue of pay disparities 
for disability compensation benefits, and the ongoing 
initiatives of the Department of Veterans' Affairs to ensure 
consistency in disability rating decisions. I will also provide 
an overview of our efforts to support returning service members 
and their families.
    Consistency in disability evaluations and payments to 
veterans has become a very visible concern in recent months. 
When the issue of consistency was first raised, the Secretary 
asked the Inspector General to review and evaluate the factors 
that contribute to State variances in VA disability 
compensation payments. The Inspector General published its 
review report on May 19, 2005, citing a number of intervening 
factors that influence variances in disability compensation 
payments.
    Several recommendations were included to address the 
variance in disability compensation payments. Veterans Benefits 
Administration concurs in the recommendations and has efforts 
underway to implement those recommendations.
    Considerable attention has been focused on the Chicago 
Regional Office, its low average disability compensation 
payment per veteran. However, when measured on an annual basis, 
average payments on cases they cited in recent years have 
increased, placing them above the national average, from years 
2003, 2004 and this year to date.
    Chicago Regional Office management has worked hard over the 
past several years to improve the office's performance. These 
changes began with the reinforced cultural attitude, 
emphasizing granting benefits whenever possible. Aggressive 
steps were taken to improve rating quality through increased 
training efforts, routine local reviews, and regular feedback 
to decisionmakers. The results of those actions are evidenced 
by the increased average disability payments achieved over the 
past 5 years, as well as marketed improvements in the quality 
of the work.
    Concern has been expressed that the staffing of the Chicago 
Regional Office may not be sufficient to handle a significant 
increase in claims, and that VA may not be able to provide 
timely service to transitioning service members returning from 
Operations Iraqi Freedom and Enduring Freedom. VBA is 
addressing the staffing needs in Chicago through the assignment 
of permanent and temporary staff.
    As mentioned earlier, Chicago Regional Office has recently 
hired five new staff members. Only this past week we have given 
them additional authority to hire seven more staff members. We 
will continue to monitor Chicago's workload demands and 
staffing levels to ensure that it is staffed appropriately in 
consistency within available resources.
    To augment Chicago's claims adjudication staff, VBA has 
assembled a team of five seasoned veterans service 
representatives, all of whom are skilled in claims development. 
The team members are focused specifically on processing claims 
from veterans who have submitted new disability claims or 
reopened their claims, as a result of the recent attention on 
the variance issue.
    The Chicago Regional Office's commitment is evidenced by 
their efforts to improve performance and partner with State and 
local organizations. While there are many improvements to be 
made, we need to recognize the positive steps that have been 
made to ensure quality services are provided to Illinois 
veterans.
    On June 8, 2005, VBA leadership and Chicago management met 
with Mr. Eric Schuller, who is senior policy advisor to 
Lieutenant Governor Pat Quinn, which resulted in development of 
a pilot effort to provide alternate services to veterans at the 
Illinois Department of Veterans' Affairs office in Springfield, 
Illinois. This effort will enable us to provide increased 
direct service to veterans in that part of the State.
    In conjunction with the pilot, the Chicago Regional Office 
will provide training to representatives from local service 
organization posts who assist veterans with benefit claims. The 
goal is to increase the knowledge of these community-based 
representatives, who are widely dispersed throughout the State, 
so that they can be more effective in their claims assistance 
efforts.
    Concurrent with our focus on consistency, VA is working 
hard to ensure that military members have a seamless transition 
from active duty to VA's benefits and health care systems. VA 
employees provide services at 140 military bases, where they 
can meet with and counsel service members about their VA 
benefits, and assist them to file for those benefits as they 
approach discharge.
    VA has professional staff at the Walter Reed Army Medical 
Center, the National Naval Medical Center in Bethesda, the 
Landstuhl Army Medical Center in Germany, and other key 
military medical facilities, to ensure that our wounded service 
members are aware of their VA health care and benefits long 
before they are discharged. We have implemented case management 
procedures for seriously disabled service members of Operations 
Enduring and Iraqi Freedom, to ease their transition to veteran 
status, and ensure the coordinated delivery of benefits and 
services. Every regional office and medical center has a 
designated OIF/OEF coordinator who reaches out to and 
communicates with injured service members, ensures that their 
health needs are met and their benefits claims are processed 
expeditiously.
    The VA strives to honor each new veteran and their family 
with compassion and dignity. Our challenge is to ensure that 
all regional offices are generating consistently accurate and 
timely decisions that provide the maximum benefits to which 
veterans are entitled. Thank you, Senators.
    [The prepared statement of Ronald Aument follows:]

    Prepared Statement of Ronald Aument, VA Deputy Under Secretary 
                              for Benefits

    Senator Obama thank you for the opportunity to talk with you today 
about a critical benefit for veterans--disability compensation.
    This morning I will discuss the issue of pay disparities for 
disability compensation benefits and the ongoing initiatives of the 
Department of Veterans' Affairs (VA) to ensure consistency in 
disability rating decisions. I will also provide an overview of our 
efforts to support returning service members and their families.

    REVIEW OF STATE VARIANCES IN VA DISABILITY COMPENSATION PAYMENTS

    Consistency in disability evaluations and payments to veterans has 
become a very visible concern in recent months. When the issue of 
consistency was first raised, the Secretary asked the Inspector General 
(IG) to review and evaluate the factors that contribute to State 
variances in VA disability compensation payments.
    The IG published its review report on May 19, 2005, citing a number 
of complex and intervening factors that influence variances in 
disability compensation payments. Several recommendations were included 
to address the variance in disability compensation payments. VBA 
concurs in the recommendations and has efforts underway to implement 
them.

          IMPROVEMENTS UNDERWAY AT THE CHICAGO REGIONAL OFFICE

    Considerable attention has been focused on the Chicago Regional 
Office's low average annual disability compensation payment per 
veteran. However, when measured on an annual basis, average payments to 
veterans in Illinois increased, development of a pilot effort to 
provide itinerant outreach services to veterans at IDVA's offices in 
Springfield. This effort will enable us to provide increased direct 
service to veterans in that part of the State.
    In conjunction with the pilot, the Chicago RD will provide training 
to representatives from local service organization posts who assist 
veterans with benefit claims. The goal is to increase the knowledge of 
these community-based representatives who are widely dispersed 
throughout the State so they can be more effective in their outreach 
and assistance efforts.

                    ACHIEVING CONSISTENCY ACROSS VBA

    Quality and consistency are goals that have been at the center of 
VBA's efforts for the past 3 years. Achieving consistency and quality 
in our regional office operations ensures veterans in every State 
receive the benefits and service they have earned. Critical to our 
success is our standardized work management model for claims 
processing. Under the Claims Processing Improvement Model, veterans 
service center employees in every regional office are aligned into 
specialized teams designed to expedite claims processing, increase the 
quality of decisionmaking, and ensure staff expertise.
    Training, both for new employees and to raise the skill levels of 
the more experienced staff, is obviously key to consistency in our 
rating decisions. VBA deployed new training tools and centralized 
training programs that support greater consistency. Training materials 
and satellite broadcasts on the proper approach to rating complex 
issues have been provided to every field station. Regulations that 
contain the Schedule for Rating Disabilities have been revised to 
eliminate ambiguous rating criteria and replace them with objective 
rating criteria wherever possible.
    Accuracy is monitored through VBA's Systematic Technical Accuracy 
Review (STAR)--a centralized program that measures national accuracy 
using statistically valid sampling. STAR findings are distributed to 
field stations and shared with training staff for incorporation into 
computer-based training modules, and other training tools.
    Regional office operations are monitored continually to identify 
areas where quality improvements can be made and processing 
efficiencies can be realized. Site visits are conducted on a regular 
basis to assess station management, operating performance, training, 
and workload management. Training is provided by the site visit team as 
needed.

                            OEFIOIF VETERANS

    Concurrent with our focus on consistency, VA is working hard to 
ensure that military members have a ``seamless transition'' from active 
duty to VA's benefits and health care systems. VA employees provide 
services at 140 military bases, where they meet with and counsel 
service members about their VA benefits and how to file for those 
benefits as they approach discharge. VA has professional staff at the 
Walter Reed Army Medical Center, the National Naval Medical Center at 
Bethesda, the Landstuhl Army Medical Center in Germany, and other key 
military medical facilities to ensure our wounded service members are 
aware of their VA health care and benefits long before they are 
discharged.
    We have implemented case management procedures for seriously 
disabled service members of Operations Enduring Freedom and Iraqi 
Freedom (OEFIOIF) to ease their transition to veteran status and ensure 
the coordinated delivery of benefits and services. Every regional 
office and medical center has a designated OEFIOIF coordinator who 
reaches out to and communicates with injured service members, and 
ensures their health needs are met and their benefit claims are 
processed expeditiously.

                               CONCLUSION

    VA strives to honor each new veteran and their family with 
compassion and dignity. Our challenge is to ensure that all regional 
offices are generating consistently accurate and timely decisions that 
provide the maximum benefits to which veterans are entitled.

    Senator Obama. Thank you very much.
    Our final witness on this panel is Ms. Rochelle Crump, 
who's the Assistant Director of the Illinois Department of 
Veterans' Affairs.
    Just for those witnesses who aren't familiar with how our 
veterans offices are structured, the Illinois Department of 
Veterans' Affairs is a State agency dealing with veterans, and 
so is separate and apart from the Veterans Administration, 
which is a Federal agency.
    Ms. Crump.

   STATEMENT OF ROCHELLE CRUMP, ASSISTANT DIRECTOR, ILLINOIS 
                 DEPARTMENT OF VETERANS AFFAIRS

    Ms. Crump. Yes. Good morning, Senator Obama and Senator 
Durbin. I, too, would like to take this opportunity to thank 
you for holding this hearing today.
    In my opinion, there has been significant improvement 
within the Department of Veterans' Affairs Regional Office, and 
certainly I applaud the VA's willingness to look at cases and 
make corrective decisions by stature of law. However, I am very 
disappointed that it appears veterans are still having to fight 
to get their benefits that they so duly deserve, for benefits 
that they have not been awarded for the service that they 
contributed to America.
    The Department of Veterans' Affairs is still denying cases 
individually by statute of human error or by resistance to pay 
claims. Certainly, I would be one to just say that over the 
years we have seen the increase in responsibility taken by the 
VA to do better, but we still are not where we should be.
    Different cases I could bring to you, and I will bring 
those up, just to give you a scenario of two. A Gulf War 
veteran, who served from 1985 to 1998, 1 year 2 months and 28 
days, discharged honorably, filed for compensation. His service 
medical records indicated that he had minor surgery in service 
for the disability in which he was claiming. He was denied 
because there was no current medical evidence, and the VA never 
examined him, which would have made his actual case prevalent 
to what he was actually claiming for.
    Another one was a homeless veteran who was denied benefits. 
He reopened his claim for post-traumatic stress disorder, and 
they indicated there was no new evidence. However, there was a 
doctoring statement from Hines Hospital indicating that the 
veteran was unable to work because of his post-traumatic stress 
disorder. He was denied benefits because they said there was no 
new evidence. However, the VA did not prosecute duty to assist 
by asking if there were any other medical records or treatment, 
what type of treatment he was currently under, and there was 
just no consistency in trying to help that veteran.
    Overall, I just really think that we still have a lot of 
work to do to help our veterans. Hopefully, over the weekend, 
the Governor's initiative to host a supermarket of veterans 
benefits on Saturday at Navy Pier would allow veterans to come 
out and be better informed about how they can get assistance 
through representatives.
    That's what I am hoping to do, and I just thank you for 
what you're doing for Illinois veterans.
    Senator Obama. Thank you very much, Ms. Crump.
    The way we will proceed, I will ask about 5 minutes worth 
of questions. I will turn it over to Senator Durbin for 5 
minutes of questions from him. Then we'll just keep on going no 
longer than I would say about 15 minutes before we see the next 
panel. If people can keep their responses relatively succinct, 
I will try to keep my questions relatively succinct.
    Let me just start with you, Mr. Herres, because I want to 
make sure that I am clear on exactly what happened to you, as 
just as an example of some of the problems that we are 
experiencing.
    From your testimony, my understanding is you have been 
dealing with the VA system now for over 20 years, is that 
correct?
    Mr. Herres. That's correct.
    Senator Obama. Your first claim was filed in 1980?
    Mr. Herres. Yes, I first filed in 1980. I was awarded a 
disability for my knee and nothing for my hands at that time.
    Senator Obama. OK.
    Mr. Herres. In 1981, I was called back for re-evaluation. 
The gentleman that I had seen, I am not sure at this time, I 
believe he was a doctor, said, the exam went like this: He 
says, let me see your hands. He looked at my hands and says, 
``I don't see any arthritis.'' He says, ``walk,'' and he says, 
``I don't see anything wrong with your knee.'' He asked me 
where I worked, I told him. He says, ``You have good 
insurance.'' He says, ``Don't come back, I don't see anything 
wrong with you.'' Shortly after, my disability for the 10 
percent was discontinued.
    Senator Obama. So, you had originally been awarded the 10 
percent disability?
    Mr. Herres. Yes, sir.
    Senator Obama. After this examination in 1981, your 10 
percent was eliminated?
    Mr. Herres. Yes, sir.
    Senator Obama. And, subsequently, you spent the rest of 
this time trying to get that disability re-instated?
    Mr. Herres. I have been going to civilian doctors and just 
dealing with it on my own. At the urging of my wife, she says, 
``Well, why don't you see if you can have something done,'' and 
that's when I contacted Senator Durbin's office in 2001.
    Senator Obama. OK. Senator Durbin's office in 2001, what 
kind of assistance did they provide you?
    Mr. Herres. They eventually contacted the VA on my case. 
Mr. Michael Vernon was there. through the liaison, Mr. Hines, 
the VA insisted that I never received anything from them in any 
form of disability.
    I had to prove this on my own, using my Form 15 U.S. Civil 
Service Commission Claim 10 Point Veterans Preference, which 
had my file number on it and my place of employment. Still Mr. 
Hines refused to acknowledge that I ever did have a claim with 
the VA. Yet, when I contacted Ms. Mambrido at Hines, all she 
had to do was punch in my service number, my social security 
number, and my entire file came up.
    Senator Obama. OK. At that point it was established that 
you had been awarded the claim?
    Mr. Herres. Yes.
    Senator Obama. That it had been discontinued, and is this 
the point where Mr. Lynch then gets involved?
    Mr. Herres. I contacted Mr. Lynch in August of 2002. Mr. 
Lynch advised me to see an outside orthopedic surgeon, which I 
did.
    Senator Obama. Subsequent to that, with Mr. Lynch's 
assistance, you were then able, finally, to get recognition of 
your disability and a disability claim recognized?
    Mr. Herres. Only on my knee. Finally, after years of going 
back to the VA where they were supposed to look at the crush 
wounds, they never did. Finally we appealed to Washington, DC., 
who sent it back on remand. Still, they have not acknowledged 
it.
    Senator Obama. At this point you still have no 
acknowledgment from the VA that you have a service-related 
injury to your hands?
    Mr. Herres. Correct.
    Senator Obama. OK. Mr. Lynch, you raised a couple of points 
that I felt were interesting, so let me take them one at a 
time.
    The first was, your feeling just based on your regular 
actions with the Chicago Regional Office, that the Chicago 
Regional Office up until perhaps this year, and the dust up 
surrounding this disability payments issue, has been 
understaffed, is that correct?
    Mr. Lynch. Absolutely. Since the RIF.
    Senator Obama. Right. One of the justifications, at least, 
that you've heard, it sounds like, for the reason that we are 
understaffed relative to some other regional offices is the 
fact that the Chicago cost-of-living is higher, and as a 
consequence, a set amount of money goes to hire fewer rating 
specialists here in the Chicago Regional Office, is that 
correct?
    Mr. Lynch. Absolutely, it's cheaper.
    Senator Obama. I would assume then, that, in fact, the 
regional offices are getting a flat amount of money? There are 
no accommodations for the fact that the cost-of-living might be 
higher in a place like Chicago, and so the Chicago Regional 
Office might need to get a slightly higher allocation to 
accommodate that, so that you would have the same number of 
rating specialists per veteran as you would in any other region 
in the country, is that correct?
    Mr. Lynch. Well, what I was led to believe, it was not just 
the number of rating specialists, but it's the person that 
inputs the awards. Let me give you an example. Years ago, when 
a veteran would be awarded, it would be about 15 days and he 
would get an award letter and very quickly after that a check. 
We now have a waiting period in some of our veterans of up to 
30 days, 60 days. One we had that was 90 days after the award 
was issued. That's absurd.
    Senator Obama. Right.
    Mr. Lynch. You see the problem is, once the award's made, 
it has to be inputted into a computer. Somebody has to do that. 
Somebody has to do the development of the case. They have to 
send out letters and get other information. If you don't have 
people to do that, that falls on the rating specialist who's 
already overburdened in trying to rate the case and develop 
medical evidence and so on.
    You have a system where, you used to be able to send 
something to an adjudicator or a clerk typist or whatever, to 
get it done. Now it's being done by the rating specialist. 
There's an overburden on them. Those that are not up to the 
task, just find it easier to not do the job properly.
    Senator Obama. Of course, my understanding is, well, one 
example that you just used is the waiting period in terms of 
getting checks after an award has been made. But we are also 
seeing, from your experience, significant wait times just in 
terms of having a claim processed in the first place.
    Mr. Lynch. I had a case the other day, and I went up and 
talked to somebody about it because I had not yet got a 
Statement of Case, and it was almost a year old. I just 
happened to have come across it in one of my file reviews that 
I do, and I am like, well, where's the Statement of Case. I 
went up and talked to the individual, he says, ``Well, it takes 
about almost 300 days to get one out now.'' I don't know how 
true that is, but that's what this person told me.
    Senator Obama. What do you think would be a fair amount of 
time, given your knowledge of the system, to process something 
like a Statement of Case?
    Mr. Lynch. A Statement of Case should come within 60 to 90 
days, unless there's some more development that needs to be 
done. It's not that hard to do, unless if you have to go out 
and get more medical evidence and develop it and so on. Then, 
you do have to do that. But to just act on a Notice of 
Disagreement, if it's a flat Notice of Disagreement, you issue 
a Statement of Case.
    Senator Obama. Right. What should take 2 to 3 months is 
taking potentially up to a year.
    Just a couple of other questions. It struck me, based on 
your testimony, that there are clearly some rating specialists 
who advocates like yourself know are not doing the right thing 
by the veterans. That there are ones who are begrudging, in 
terms of acknowledging disabilities, and more importantly, who 
objectively are overturned again and again at much higher rates 
on appeal. Am I correct in saying that?
    Mr. Lynch. That's been my experience. Yes, sir.
    Senator Obama. OK. It is my understanding that rather than 
seeing the Chicago Regional Office correct, retrain, or in some 
way temper the amount of damage that these poor rating 
specialists can do, instead they have been promoted in some 
cases. They have gotten more caseloads. As a consequence, more 
veterans are adversely affected by their poor decisionmaking.
    Mr. Lynch. Exactly.
    Senator Obama. Is this something that you and other 
advocates have brought up to the Chicago Regional Office?
    Mr. Lynch. Just hallway conversations, you know. We talk 
amongst ourselves occasionally, and then the same names keep 
popping up.
    I am sure the Regional Office has been made aware of that 
but, you know, again, they are still there.
    Senator Obama. Mr. Aument and Mr. Olson, if you want to 
chime in, feel free to do so.
    Let's just start with that issue. It strikes me that, at 
least among advocates, there is a sense that there are some 
rating specialists that just aren't doing the job. It appears 
that there's also some objective way of measuring whether 
that's the case by reviewing the number of their cases that are 
overturned on appeal. Am I correct about that?
    Mr. Aument. Let me leave the discussion of the specifics on 
Chicago, of course, to Mr. Olson. But I will say that we do 
have national quality control systems in place that are 
designed to bring more national level consistency, both at the 
regional office and the individual level.
    In some cases, though, it's a centrally managed and 
conducted quality review, a system that uses sample cases 
throughout the country. I will say that it gives us a very good 
insight into the quality of the work product from any 
particular office, but it is not an adequate sample size to be 
able to evaluate individual raters.
    Being able to do that that finely, hone in on that, there's 
where we have to rely largely upon the management at the local 
level to be looking at the quality of the individuals working 
in their office. With that, I will turn to Mr. Olson.
    Senator Obama. Mr. Olson, what about Mr. Lynch's 
assessment? And by the way, this is not something that I have 
heard simply from Mr. Lynch. I have heard before that the 
Chicago Regional Office may have rating specialists who seem to 
be repeatedly overturned on appeal. These raters seem to be 
extraordinarily stingy when it comes to awarding of benefits. 
The awarding of benefits, as Mr. Lynch indicated, should be 
viewed in the broadest possible terms as opposed to the 
narrowest possible terms. But, from what I have heard, it 
doesn't appear as if there's any accountability or mechanisms 
whereby those rating specialists who appear to be a problem are 
retrained or shifted from their position. I am wondering if 
that's something that you want to comment on.
    Mr. Olson. Let me say that I respectfully disagree with Mr. 
Lynch on specifics. Let me tell you what we have done to 
improve the quality of the decisionmaking within the Chicago 
Regional Office.
    We have assigned two of our best individuals to review 
cases as they are completed, before they are promulgated, to 
assure that they are done correctly and accurately. If not, the 
immediate feedback is given to the decisionmaker and 
corrections are made, if necessary.
    I will say that within the last couple of years we have 
improved our quality 19 points, from a quality level of 72, 
which we were not at all proud of, to a quality level of 90 
percent right now. Twelfth best in the country, in terms of the 
quality of decisionmaking within the rating scheme. It's a 
subjective interpretation of the law in many cases.
    Senator Obama. Let me interrupt you there, just real quick.
    What I am hearing, I guess, is that there may be certain 
experienced raters who are repeatedly overturned on appeal. If 
somebody has an appeal rate of 60 or 70 percent, that would 
indicate potentially that there's some significant problems 
there, would it not?
    Mr. Olson. Let me say that none of the service officers 
have come to me and said you have a problem with X Rater.
    Nobody has come to me and said Mr. Jones is consistently 
overturned on VBA's.
    Senator Obama. But that's not surprising, right? I mean the 
service officers are going to be appearing before these same 
rating specialists. They are not going to complain to you in a 
way that might leave them or, more importantly, their clients 
open to retaliation.
    The question is, Is there some sort of internal mechanism 
within the office that's reviewing and saying, ``You know what, 
it looks like this guy is repeatedly overturned, and that 
indicates a problem, and let me investigate why that's taking 
place''?
    Mr. Olson. We aren't finding that. We aren't finding 
individuals consistently overturned. I will talk with Al Lynch. 
I will talk with the other service officers and ask for 
specifics, if they have specifics.
    Senator Obama. Are those records kept and available for 
public review, the degree to which particular specialists may 
be seeing their cases appealed, and then overturned on appeal? 
I am assuming that those records, you must keep them, right?
    Mr. Olson. I don't believe we have those stratified by that 
way.
    Senator Obama. You don't keep them that way?
    Mr. Olson. No.
    Senator Obama. Is there a reason why that would be the 
case? I mean, we are in a judge's chamber. I know that the 
judge is here. Lifetime appointee Federal judges, there are 
statistics that are kept as to whether or not a judge is 
repeatedly overturned on appeal. There's a chief judge who's 
going to be monitoring that to ensure that at some level 
there's consistency in decisionmaking, and there are no 
problems with a particular judge. Why wouldn't we do that with 
a rating specialist?
    Mr. Aument. Possibly I can answer that, Senator.
    As I mentioned before, we do tend to keep the statistics on 
a national level as far as the office performance. Probably 
less with respect to the instances in which they are 
overturned, because the Board of Veterans Appeals, when they 
are looking at cases, they look at them de novo. The cases that 
come to them, almost invariably will contain evidence that was 
not looked at by the regional office when they originally made 
their decision.
    But one of the things we look at very, very carefully are 
the instances in which a case has been remanded back to the 
regional office, often for inadequate development purposes. The 
fact is that we find that in many cases to be more troubling, 
if we believe that the regional office has not done a good job 
in developing the case. We tend to look at that pretty 
carefully.
    Senator Obama. Fair enough. One last question, and then I 
will turn it over.
    There has been obviously some significant discussion about 
this discrepancy between disability claims here in Illinois 
versus other States. Secretary Nicholson has been responsive. 
We appreciate his response, and your office's response. My 
understanding is you've already hired five additional rating 
specialists and, perhaps I heard correctly that today you're 
going to hire an additional seven, assuming----
    Mr. Aument. Actually we hired six more already, sir. We 
plan to hire six more. We have given them authority to hire six 
more.
    Senator Obama. Potentially we have got 12 new rating 
specialists, and that should help us. I am concerned about how 
we are dealing with not only current claims and, Mr. Olson, 
it's clear that there has been improvement. I think everybody 
acknowledges there's been improvement in the Chicago office on 
this front, and we are not saying Illinois ranking fiftieth in 
new claims. We are now in the middle of the pack, maybe even a 
little bit above that, and that's terrific.
    But one of the concerns that I have is what's happening 
with somebody like Mr. Herres, and my understanding is, that 
there may be a distinction between reviewing cases and 
reopening cases. That in one circumstance, somebody like Mr. 
Herres has to go through the entire process that he's already 
endured, all over again. I still don't understand why no one 
has just not looked at his hands.
    In contrast, in a review a veteran could come in some 
expedited fashion, have that file reviewed, and get prompter 
action. I am wondering if you can speak to me a little bit 
about whether given these additional resources, we are going to 
be able to deal not only with new claims in a more effective 
fashion, but whether we are also going to be able to look back 
at people like Mr. Herres who may have been dealt with 
unfairly, to assure that they are not having to wait another 20 
years to get their claims adjudicated.
    Mr. Olson. Let me say that those people who have come to us 
and asked for a review of their claim, we have made personal 
contact with them to get specific information about where they 
have a disagreement or where their disability has increased in 
severity. So that we have a basis on which to further develop 
that claim and help that veteran provide us evidence that will 
allow us to further grant benefits.
    Senator Obama. How are we reaching out to those veterans? 
How do they know to get in contact with you, that this may be 
available?
    Mr. Olson. Mr. Aument mentioned the outreach effort that we 
have with the Illinois Department of Veterans' Affairs. We have 
regular meetings with the VSO's asking them to outreach to 
their folks.
    A number of people have come to the service officers in our 
building, asking that their files be reviewed, and the service 
officers are working with them to make sure that the benefits 
that are appropriate have been granted. If there's an increase 
in disability, they help them file a claim for an increase in 
disability. We are working closely with the service officers to 
attempt to reach as many people as we can.
    Senator Obama. I am still not clear about the distinction 
between a review and a reopening of a case, and how those 
decisions are made. My understanding is there is a difference. 
I may be mistaken about that. One could conceivably take much 
longer than the other, or is this a distinction that doesn't 
exist?
    Mr. Aument. I am not sure that is a distinction, Senator.
    A reopened case, is a characterization of a case in which 
the veteran has come to us either telling us that their 
condition has worsened or asking that their case be reviewed, 
because their evidence may not have been adequately considered 
when it had been looked at previously. Roughly two-thirds of 
the workload that we see coming to us consists of re-opened 
cases. You know, we expect this year to receive around 800,000 
claims nationally. The statistics on those are that roughly 
two-thirds of those will consist of re-opened claims.
    Review, of course, then, is the process that takes place 
once we have actually received the request from the veteran, 
that their claim be reviewed.
    Senator Obama. I would like us to see what we can do with 
respect to Mr. Herres. He's been waiting a long time. My hope 
would be that, if nothing else came out of this hearing, that 
at least he would get some sort of prompt attention.
    Let me turn it over to Senator Durbin. I appreciate my 
senior Senator's patience.
    Senator Durbin. Thank you very much.
    Mr. Herres, when you came to my office, Michael Vernon 
helped you?
    Mr. Herres. Yes, sir.
    Senator Durbin. Michael Vernon has since left my office, 
graduated from the University of Illinois Law School, and 
passed the bar exam. And you're still looking for help from the 
VA.
    Do you have any idea how much time has been involved since 
you first contacted our office? I thank you for your 
persistence, and I am glad you're here today to tell your story 
because it really puts a face on a lot of statistics and a lot 
of anecdotes. Thank you for your service to our country, as 
well.
    Thanks to Al Lynch, because we know from the Inspector 
General's report that if veterans like Mr. Herres walked into 
the VA alone, they are not as likely to be successful. I have 
forgotten the exact number, was it 50 percent?
    Mr. Lynch. Fifty percent.
    Senator Durbin. Fifty percent difference if they have an 
advocate by their side like yourself. They do much better than 
if they go in alone, which is a sad commentary on the Veterans 
Administration. Because I think the quote that you'd made from 
the law makes it clear that this is supposed to be an agency 
that broadly interprets the law to help the veteran. It's 
supposed to be erring on the side of the veteran. It certainly 
didn't do that with Mr. Herres, and I think you see a number of 
cases along these lines from what you've testified.
    Now, it's not in your written testimony, but you spoke 
about the frequency of reversing on appeal, and I would move 
the figure 60, 70 percent. Now, you've made it very clear and 
we should make it very clear that the majority of people 
working at the VA are not the problem. They are doing a good 
job and working hard under difficult circumstances. But there 
are some who you suggest are consistently overruled on appeal. 
Can you tell me again what that number was, so it's clear in 
the record?
    Mr. Lynch. The last figure I got, that it was, and I am not 
going to give an exact one because I am not really sure of it, 
but I know it's over 60 percent of the cases that go to the 
Board of Veteran Appeals. They are either remanded or 
overturned by the BVA.
    Senator Durbin. And what does that tell us? Does it tell us 
that there are rating specialists who don't get it right?
    Mr. Lynch. It tells me as a veteran's advocate, if I get a 
remand, and many times, and, again, I am only speaking from my 
own personal experience. As an example, I will let a rating 
specialist know through a memorandum or letter, what have you, 
from the veteran that, you know, he was not seen by a doctor, 
it was a physician's assistant, and ask for re-examination. 
Sometimes that doesn't happen.
    A physician's assistant, nursing assistants cannot make 
medical opinion. They can examine things as far as range and 
motion, but they can't opinion as to what causes things to 
happen. When I get an opinion from one of those, I usually let 
the rating specialist know that you can't base the rating, the 
decision on an opinion of a nurse practitioner or a physician's 
assistant.
    A lot of times I will have a memorandum go forward where an 
examination is over a year old, in a case like of a Notice of 
Disagreement or an appeal that is languished at the regional 
office for an extremely long period of time. Ask for a new one. 
Many times those are ignored. It just varies case by case. 
Sometimes there's new evidence that gets ignored.
    Senator Durbin. We'll go to the point Senator Obama raised. 
Is it well known which rating specialist or particularly 
hardened veterans that have a higher incidence of overturn on 
an appeal?
    Mr. Lynch. I think if you would ask any service officer 
within the Chicago office and, off the record, informally, who 
they were, I think you would probably find the same names 
consistently come up.
    Senator Durbin. Are we talking about 5 people, 10 people, 
more?
    Mr. Lynch. I think it's probably more around four, five, or 
six people that are consistently marginal. We all have our 
favorites that we disagree with.
    Senator Durbin. Out of how many? Out of a pool of how many?
    Mr. Lynch. I really don't know how many rating specialists 
they have right now.
    Senator Durbin. Mr. Olson, how many do you have?
    Mr. Olson. Thirty-five.
    Senator Durbin. There are four or five that would say, as 
an advocate, you take care to try to avoid? It's like picking 
the wrong judge.
    Mr. Lynch. Well, it's done by terminal digit of a number, 
so if they happen to fall into this person's lot, I know that I 
am going to have a rough time with the case. It's just 
automatic. I know if I get this certain rating specialist, or 
whoever, that we are probably going to end up in appeal 
because----
    Senator Durbin. Mr. Olson, you're not aware of this 
phenomenon at all? That there are several of your specialists 
who are giving the veterans and the advocates a tougher time 
and having a higher rate of being overturned in appeal? You're 
not familiar with this?
    Mr. Olson. I am not aware of any data that shows us that a 
specific rating specialist, or rating VSR, has been 
consistently overturned by the Board of Veterans Appeals.
    Senator Durbin. We are at a disconnect between you and Mr. 
Lynch. It sounds like you're working with two different offices 
here. I don't understand why there wouldn't be more of a dialog 
and communication between the VA and the veterans advocates, so 
that there's at least some conversation that leads to this 
statement of the law that says we are on the side of the 
veteran together. It isn't an adversarial situation. We are on 
the side of the veteran together here.
    Mr. Olson. Yes, we are.
    Senator Durbin. But it seems like there's some dialog 
missing here, some conversation missing.
    Mr. Olson. I would say that we have regular monthly 
meetings with service officers where we can bring up any issue 
that we want to on the VA side. Service officers can bring up 
any issue they want.
    Mike Stephens, our service center manager, has an open door 
policy, and service officers regularly come to him on 
individual cases where there is a difference of opinion between 
a service officer and rating specialist. Mike will sit down and 
talk with the service officer. Mike will sit down with the 
service officer and the rating specialist to come to an 
understanding. Sometimes that is an agreement to disagree, like 
any other decision that involves some judgment.
    People have not come to me, not one single veteran service 
officer has come to me and said Mr. Jones, Rating Specialist 
Mr. Jones consistently is overturned by VBA and I consistently 
have arguments with Rating Specialist Mr. Jones. That has not 
happened.
    Senator Durbin. First thing, going back to Senator Obama's 
question, the first point about whether they are consistently 
overturned would seem to be something that you ought to know 
already. That should be a matter of record, shouldn't it? If 
one of your rating specialists is consistently overturned?
    Mr. Olson. I would say that I am not aware of it. I am not 
aware of any of our rating specialists being consistently 
overturned. I would think if that happens I should be aware of 
it. Because it's stated doesn't make it a fact.
    Senator Durbin. Well, Mr. Lynch, would you like to respond?
    Mr. Lynch. There's one simple way to prove whether it's 
right or wrong and it's really, I would think, very easy to do. 
Every rating specialist is assigned a certain number of cases 
by terminal digit. If you can track it on the gross, why can't 
you track it on an individual? You have a rating specialist 
that signs off on a case, and it goes forward to the Board of 
Veteran Appeals. How hard is it to track what happens to that 
particular case?
    We have computers. You plug it in. You work up a data base. 
If it comes back on a remand, it would pop up that Rating 
Specialist Jones handled this case. A certain person in the ACT 
team handled it next, and a certain other person, a DRO handled 
it after that. It still was overturned.
    Senator Durbin. Mr. Olson, that doesn't sound unreasonable. 
That doesn't sound unreasonable.
    Mr. Olson. Let me say that I will meet with Mr. Lynch this 
week and talk specifics. I will meet with the other VSO's in 
the building, talk specifics about what their complaints may 
be. Try to get some exact numbers and some cases that are 
representative from their perspective of rating specialists who 
are not doing their job.
    Senator Durbin. All right.
    Mr. Olson. And we'll develop whatever data we can to----
    Senator Durbin. Let's work on that. I think developing that 
data would kind of get to the bottom of it.
    The last thing I want to say before I turn it back to 
Senator Obama, Mr. Lynch, you made a point of the deadlines, or 
at least the timeliness involved in some of these. Like, the 
Statement of the Case that you thought should take 60 to 90 
days and takes almost a year, or 10 months I guess. Three 
hundred days is what you suggested.
    I assume that there are other mileposts along the way 
evaluating a disability claim, as to how quickly there's 
response. Now, from the Veterans side, there may be medical 
information that has to be provided and it takes some time to 
get the appointment, bring doctors reports together and such.
    But what I am getting to is this: You've made a point that 
you think the RIF, the reductions in force of employees has 
caused part of this problem. There are not enough people to 
handle the work at the regional office. Some of it's being 
farmed out to areas that are cheaper for the VA, because the 
employees aren't paid as much.
    Can we talk about these mileposts and these quality 
guidelines to determine what is a reasonable time for the 
Statement of the Case to come forward? And then really hold the 
VA accountable and say, ``Well, how frequently do you miss 
that? How frequently does it take 10 months instead of 2 months 
to do a Statement of a Case? Would it be possible for the 
service organizations, on behalf of the veterans, to tell us 
where these mileposts are and what they think the time 
guidelines might be for each one of them?''
    Mr. Lynch. I think it would be reasonable to do that. The 
problem that we had is under Secretary Principi, he had a 
certain number of reports that were due. In our office, what we 
noticed was the number of denials went up at the end of the 
quarter when reports were due.
    What we have is we have a push to get the job done, and 
when I push someone, you know, it's the old saying of do you 
want the job done now or do you want it done right. I would 
rather have the writing specialist do the job right and get it 
done properly than to get it done now and we have to spend 2 
years in appeal.
    Senator Durbin. So, the speed of the initial, the timing of 
the initial decision, whatever it might be, Statement of the 
Case and such, is less of a concern to you?
    Mr. Lynch. Provided they are doing the job properly. I 
don't want a hurried job.
    Senator Durbin. I see.
    Mr. Lynch. Personally, I don't want a hurried job.
    When I go to appeal or when I get a denial, I want to know 
that every piece of evidence was considered properly.
    The law says, in the code of Federal regulations, that you 
have to consider all the evidence in the entire record. Many 
times they do what we call top page adjudicating, go down the 
first couple of inches, look at the last couple decisions, and 
move on to continue with the denial, as opposed to looking at 
the whole record. That has to stop.
    But, again, you have to understand that you have a rating 
specialist with 150, 200 cases more that he's got to get 
through. You've got somebody from Central Office, who has no 
clue of what they are doing on their desk, how long it takes to 
process a case, telling them get the job done, get the job 
done, get the job done, make me look good. You can't overburden 
people like that.
    The other problem is you've got rating specialists that do 
an excellent job, but there's no incentive for them. They see 
year after year--I had one guy that retired recently that told 
me, I don't get any incentives any more. I am at the top of 
everything I can get. No matter what I do, I am there. There 
has to be something.
    You know, private industry has many incentive ways of 
helping people to do a better job and encouraging them to do a 
better job. The government doesn't do that. You have many good 
people that are very, very frustrated because it's just more 
and more work, more and more stuff, more and more pressure, 
more and more get it done, more and more do this, more and more 
do that, by someone in Washington who's never even seen a claim 
file.
    Senator Durbin. Mr. Aument, I will just close by saying, I 
know you're in a delicate position. You're supposed to come and 
defend the VA budget, hell or high water, and I have heard so 
many people from various administrations, Democrats and 
Republicans, in that same position.
    But it strikes me that the acknowledgment of Secretary 
Nicholson of the need for more personnel in this office was not 
only responsive to our request, but responsive to a real need. 
I hope that you will listen carefully to Mr. Lynch and others, 
and go back and take a look as to whether or not there are 
adequate personnel for the long haul in this office. If you 
need help on the Senate side, Senator Obama and I will be there 
to help your agency. Thank you.
    Senator Obama. Well, thank you very much, Senator Durbin. 
This panel has been outstanding. I appreciate everybody taking 
the time.
    Just a closing thought for Mr. Aument, as well as Mr. 
Olson. Many good suggestions have been made here, and I think 
the Chicago Regional Office should be proactive and not simply 
reactive, with respect to some of these recommendations.
    I appreciate, Mr. Olson, your suggestion that you're going 
to meet with Mr. Lynch and other service organizations. But it 
sounded to me just in your posture that you were going to meet 
with them and have them prove that there's a problem. I guess 
my suggestion would be that you should see this as an 
opportunity to improve the management of your office.
    If there are people in that office who are not doing 
outstanding work, and if there are ways of us collecting data 
to evaluate how the work is getting done, that shouldn't be 
something that you wait for the VSO's to approach you and 
prove. That should be something that's incorporated into the 
day to day management of the system.
    It sounds like some of that is being done, Mr. Aument, at 
the national level, using sampling. It strikes me, though, that 
the rubber hits the road in the regional office and that there 
should be some mechanisms whereby those regional offices can 
evaluate and incentivize good performance at a local level.
    Let me just, again, reiterate. I would really like to see 
somebody speak directly to Mr. Herres and his advocate, to see 
if after 20-plus years he can get a resolution of his claim.
    Thank you very much all of you. Before we move to the next 
panel, I just want to acknowledge that we are in the chambers 
of Chief Judge Corcoras, who happened to just walk in. I have 
to say, Chief Judge, that these chambers are much nicer than 
the Senate hearing rooms. It's good to know.
    Chief Judge Kocoras. Use them wisely.
    Senator Obama. Absolutely. Thank you very much.
    If we could have the second panel join us?
    Senator Obama: OK, thank you very much.
    Excuse me. For reporters, if you guys can do me a favor, 
because we have a second panel, if you can go out in the hall I 
am sure Mr. Lynch and Mr. Herres and others will be happy to 
answer your questions.
    All right. We have got a second panel that's going to be 
discussing health care needs of returning veterans.
    I should say in advance Senator Durbin's going to have to 
leave probably midway through some of the testimony. That's not 
his fault. It's just a scheduling conflict that we have, so we 
are going to try to be as quick as possible. I won't repeat any 
opening statements. We'll go straight to you.
    Why don't we start with Mr. Joseph Petrosky, who's the 
Director of Veterans Affairs and Rehabilitation Office with the 
American Legion.
    Mr. Petrosky.

 STATEMENT OF JOSEPH PETROSKY, DIRECTOR, VETERANS AFFAIRS AND 
              REHABILITATION OFFICE, THE AMERICAN 
                             LEGION

    Mr. Petrosky. Thank you, Senator Obama and Senator Durbin.
    The American Legion and the American Legion of Illinois 
want to thank the Committee for allowing us to comment on the 
appearance of VA health care for our returning Operation Iraqi 
Freedom and Enduring Freedom military personnel.
    Many of these personnel coming home are expected to be 
discharged at the end of their tours. Many of our returnees are 
not active duty, but are members of the Reserve and National 
Guard. They are veterans by virtue of their Federal service.
    Do these Illinois veterans use the Department of Veterans' 
Affairs medical centers? The Department of Veterans' Affairs 
states that they are manned and prepared. Some of these facts 
may show that they are not as prepared for our returning 
heroes. We need to always remember that we have seen news 
reports of many of our troops who have been coming home and 
asking for health care.
    These homecoming veterans have already reported to service 
organizations that they have tried to enroll in the VA health 
care. The directors of these facilities advise that they 
welcome these veterans with open arms. They, the medical 
facility employees, use the VA priority category enrollment 
system to screen the veterans for their eligibility.
    The VA new enrollment veterans who fall in priority eight 
may be turned away. What happens to the 2-year free health care 
period by the VA? These veterans are frustrated because they 
are told that they will be allowed to use the VA care facility 
for 2 years after returning from service.
    There are several factors that were working against these 
homecoming veterans before they went to war. The VA had several 
studies to determine how to properly utilize their facilities. 
These studies started with the general accounting office in the 
early 1990's, and the last study of the Capital Asset 
Realignment for Enhanced Services (CARES) Options Study, 
conducted by Booz-Allen & Hamilton, which was completed in June 
2001.
    The Booz-Allen & Hamilton executive study stated that the 
results of the studies are yield and many details are for 
consideration. One of the things that's important is the 
enrollment demands projected show that the peak, in about 2004, 
and that a decline of about 7 percent from today's level, 2000 
and 2001. 220,000 enrollees in 2000 versus 203,000 enrolled by 
2010. Now, this is before we even went to war. They are looking 
at a decline of 18 percent in categories one through six.
    Some of the characteristics of the studies were Westside, 
now Jesse Brown VA Medical Center, is to renovate and service 
as a single inpatient facilities of 177 beds. Lakeside 
Inpatients are discontinued. The property is sold or used in an 
enhanced use arrangement. Hines is renovated. New blind center 
building. SCI renovation. North Chicago's renovated into a DOD 
Joint VA venture. All four sites providing an extensive array 
of multi-specialty ambulatory care facilities.
    We need to consider health care of our now returning 
troops. Lakeside is an outpatient clinic for now and operates 
on just a few floors. Westside was approved and planned for the 
total of 177 beds. Construction has not been started as of yet. 
Hines has a new blind center and spinal cord unit, and ready 
for homecoming military personnel. The Joint DOD VA venture is 
operating strongly up in North Chicago.
    We must remember the promises we made to our living 
veterans from all other wars and conflicts. Modern medicine is 
keeping us alive longer and we are not dying off fast enough to 
suit Congress. Many older veterans of World War II, Korea, were 
not sick when they returned from service. They were successful 
in life, and now they are not entitled to VA health care due to 
the lengthy procedures of the qualifying VA compensation and 
pension benefits.
    In priority eight, they may make too much money, they may 
be very successful, but to be enrolled for health care they 
have to be in one of the higher categories (priority 1-7). In 
many cases, they are filing service-connected claims just to be 
able to get in the VA health care.
    The American Legion supports mandatory funding of VA health 
care in the 109th Congress. The American Legion will closely 
monitor the progress of H.R. 515 in the House of 
Representatives and Senate bill 331 in the Senate. The Veterans 
Administration budget is mandatory. Why isn't the Veterans 
Health Administration treated the same way? Both of these 
budgets support the same heroes who have gone off to war for 
this nation.
    Remember, after the parades and victory speeches are over, 
we still have ill and injured veterans trying to continue 
treatment and rehabilitation into our society. Mr. Chairman, it 
is disturbing that the homecoming heroes must wait for 
treatment when the Nation did not wait to send them to war.
    The American Legion thanks you for the opportunity to 
comment on this matter.
    [The prepared statement of Joseph Petrosky follows:]

   Prepared Statement of Joseph Petrosky, Director, Veterans Affairs 
             and Rehabilitation Office, the American Legion

    Mr. Chairman, the Honorable Senator Barack Obama:
    The American Legion and The American Legion Department of Illinois 
wants to thank the Committee for allowing us to comment on the 
preparedness of VA health care for our returning Operation Iraqi 
Freedom and Operation Enduring Freedom military personnel. Many of 
these personnel coming home are expecting to be discharged at the end 
of their tours. Many of our returnees are not active duty, but are 
members of the Reserve and National Guard. They are U.S. veterans by 
virtue of their Federal service.
    Do these Illinois homecoming veterans use the Department of 
Veterans Affairs Medical Centers? The Department of Veterans' Affairs 
(VA) stated that they are manned and prepared. Some of these facts may 
show they are not prepared for our returning heroes. We need to also 
remember that we have seen news reports of many of our troops who have 
been coming home and asking for health care.
    These homecoming veterans have already reported to Veterans Service 
organizations that they have tried to enroll in VA health care. The 
Directors of these medical facilities advised that they welcome these 
veterans with open arms. Many of the medical facilities employees used 
VA's Priority Categories Enrollment System to screen these veterans for 
their eligibility. The VA's new enrollment veterans who fall under 
Priority 8 veterans were turned away. What happened to the 2-year free 
health care period that was implemented by the VA? These veterans are 
frustrated because they were told that they would be allowed to use VA 
health care for 2 years after returning from service.
    There are several factors that were working against these 
homecoming veterans before they went to war. VA has had several studies 
to determine how to properly utilize their facilities. These studies 
started with General Accounting Office in the early 1990 to the last 
Capital Asset Realignment for Enhanced Services (CARES) Options Study 
conducted by Booz-Allen & Hamilton which completed in June 19, 2001.
    The Booz-Allen & Hamilton Executive Summary1 states:
    The result of these study areas yielded many details for 
consideration. For the purposes of this summary however, there are 
three important points. They include:
    The enrollment demand projections show a peak in about 2004 and 
then a decline of about 7 percent from today's level (2000-2001) 
(220,000 enrolled in 2000 vs. 203,000 enrolled in 2010).
    <bullet> An 18 percent decline in Categories 1-6 (from 158,173 
enrollees to 130,314 enrollees from 2010).
    <bullet> An 18 percent increase in Category 7 (from 61,877 
enrollees to 72,595 enrollees in 2010)
          <bullet>  Categories 1-6 have highest utilization, composing 
        approximately 95 percent of inpatient population.
          <bullet>  VISN-wide approximately 18.5 percent of veterans 
        are enrolled.
          <bullet>  Because many of VISN 12's facilities are old, they 
        do not meet today's design standards for privacy, 
        accessibility, and usability.
          <bullet>  VISN 12 is segmented into three markets based upon 
        population concentration, distance to VA facilities, and other 
        characteristics.
    This characteristics study were:
    West Side (now Jesse Brown VAMC) is renovated and services as the 
single inpatient facility for Chicago (177 beds)
    Lakeside inpatient services are discontinued. The property is sold 
or used in an enhanced use arrangement.
    <bullet> Hines is renovated, new Blinded Rehab building, SCI 
renovated, maintains mission.
    <bullet> North Chicago is renovated, DOD sharing or a joint VA-DOD 
facility.
    <bullet> All four sites continue providing an extensive array of 
multi-specialty ambulatory care services.
    We need to consider the health care for our returning troops now. 
Lakeside is an outpatient clinic for now and operating with just few 
floors of the building. Westside (Jesse Brown VAMC) was approved and 
planned for a bed tower with 177 beds. Ground clearing has been 
completed but construction has not started as yet.
    Hines' new Blinded Rehabilitation and Spinal Cord building is now 
open and ready for homecoming personnel. North Chicago now has a joint 
venture between DOD and VA.
    We must also remember the promises made to our living veterans from 
all of our other wars and conflicts. Modern medicine is keeping us 
alive longer and we are not dying out fast enough to suit Congress. 
Many older veterans of World War II and Korean War were not sick when 
they returned from service, were successful in life and now are not 
entitled to get health care due to the lengthy process of qualifying VA 
Compensation and Pension benefits.
    The American Legion will stay ever vigilant, as we are involved in 
the other CARES decisions for the other VA facilities that veterans are 
expecting to access. The American Legion supports mandatory funding 
legislation for VA health care in the 109th Congress.
    The American Legion will be closely monitoring the progress of H.R. 
515 in the House of Representatives and S. 331 in the Senate.
    The Veterans Benefits Administration budget is mandatory; why isn't 
the Veterans Health Administration treated the same? Both of these 
budgets support the same heroes who have gone off to war for this 
nation. Remember, after the parades and victory speeches are over you 
still have ill and injured veterans trying to continue treatment and 
rehabilitation to re-enter society.
    Mr. Chairman, it is disturbing that the homecoming heroes must wait 
for treatment when the Nation did not wait to send them into harms way.
    The American Legion thanks you for the opportunity to comment on 
this matter.

    Senator Obama. Thank you very much, Mr. Petrosky.
    Next we have got Mr. Carl DiGrazia, Department's Service 
Officer, Veterans of Foreign Wars.
    Mr. DiGrazia.

    STATEMENT OF CARL DiGRAZIA, DEPARTMENT SERVICE OFFICER, 
                    VETERANS OF FOREIGN WARS

    Mr. DiGrazia. Thank you, Senator Barack Obama and Senator 
Durbin.
    The Veterans of Foreign Wars would like to thank the 
Committee on Veterans' Affairs for allowing us to express our 
concerns of the preparedness of VA health care for the men and 
women who are returning from Iraqi Freedom and Operation 
Enduring Freedom.
    A large percentage of our returning military are members of 
the Military Reserve and National Guard, but the Department of 
Veterans' Affairs has stated that the VA medical centers are 
prepared to meet the needs of the returning troops. This 
service organization knows that many of the returnees have 
already registered with the VA health care system.
    Some of these veterans have been refused and do not 
understand why. It's priority eight. Veterans need to be 
reconsidered. Those veterans need to be reconsidered.
    The fiscal budget of 2005 health care fell one billion 
dollars short of cost of caring for our health of our veterans. 
The Senate unanimously voted for an amendment to add an 
additional 1.5 billion to this year's budget, to meet the 
health care needs of our veterans, from World War II and those 
now coming home from Iraq. There's already an amendment and a 
request for additional funding for fiscal year 2006.
    The Reserve component of the military on active duty in 
support of partial mobilization of the Army National Guard and 
Army Reserve is approximately 124,552. The Naval Reserve is 
3,323. The Air National Guard and Air Force Reserve is 9,691. 
The Marine Corp Reserve is 9,649. The Coast Guard Reserve is 
576. The total National Guard and Reserve units total 147,611. 
This figure potentially new--health care recipients and 
compensation recipients.
    Reflecting back to 1990 and 1991 on the veterans, who 
fought the Gulf War, many of whom returned with mysterious 
illnesses; between 26 and 32 percent of the veterans who served 
in the Persian Gulf continue to have serious and persistent 
health problems. It is called undiagnosed illnesses.
    Now we have a new group of veterans coming home from the 
new war in the Middle East. Time will tell only if they will 
have the same fate as serious persistent health problems with 
no names.
    H.R. Bill 1220, the VA Compensation Cost of Living 
Adjustment Act, was passed and we support this action. We 
particularly support the authorization of 2-year demonstration 
project to collect third-party payments from insurance 
companies. We wholeheartedly support going after the insurance 
companies who reneged on their payments to the government, 
overcharge us in our premiums and get wealthy at the expense of 
the disabled veteran.
    Mr. Senators, the group of Americans we cannot be lukewarm 
about supporting are those Americans who have given up their 
youth, their health, their limbs, and a portion of their minds 
for freedom. The Veterans of Foreign Wars strongly support 
mandatory funding for VA health care, and it's going to be up 
to you, Senators and Congressmen, to make this a reality. Thank 
you for your time.
    [The prepared statement of Carl DiGrazia follows:]

   Prepared Statement of Carl DiGrazia, Department Service Officer, 
                        Veterans of Foreign Wars

    Mr. Chairman, the Honorable Senator Barack Obama.
    The Veterans of Foreign Wars would like to thank the Committee on 
Veterans' Affairs for allowing us to express our concerns of the 
Preparedness of VA Health Care for the men who are returning from Iraqi 
Freedom and Operation Enduring Freedom. A large percentage of our 
returning military are members of the Military Reserve and the National 
Guard.
    The Department of Veterans' Affairs have stated the VA Medical 
Centers are prepared to meet the needs of the returning troops. This 
service organization knows that many of the returnees have already 
registered with the VA Health Care System. Some of these veterans have 
been refused and do not understand why. `Priority 8' veterans need to 
be reconsidered.
    The fiscal year 2005 health care budget fell one billion dollars 
short of the cost of caring for the health of our veterans. The Senate 
unanimously voted for an amendment to add additional 1.5 billion to 
this year's budget to meet the health care needs of our veterans from 
World War II to those now coming home from Iraq. There is already an 
amendment request for additional funds for the fiscal year 2006 budget.
    The Reserve Component of the military on active duty in support of 
the partial mobilization for the Army National Guard and Army Reserve 
is 124,552; Naval Reserve is 3,323; Air National Guard and Air Force 
Reserve is 9,691; Marine Corps Reserve is 9,469 and the Coast Guard 
Reserve is 576. The total of National Guard and Reserve units is 
147,611.
    That is 147,611 potential new VA Health Care recipients and 
compensation recipients.
    Reflecting back to 1990-1991 on the veterans who fought in the Gulf 
War many of whom returned with a mysterious illness. Between 26 and 32 
percent of the veterans who served in the Persian Gulf continue to have 
serious and persistent health problems. It is called undiagnosed 
illness. Now we have a new group of veterans coming home from a new war 
in the Middle East. Time will only tell us if they will have this same 
fate. Serious persistent health problems with no name.
    H.R. 1220 The Veterans Compensation Cost of Living Adjustment Act 
was passed and we support this action.
    We particularly support the authorization of a 2-year demonstration 
project to collect third party payments from insurance compares. We 
wholeheartedly support going after the insurance companies that renege 
on their payments to the government, overcharge us on our premiums and 
get wealthy at the expense of the disabled veteran.
    Mr. Senator, the group of Americans we cannot be lukewarm about 
supporting are those Americans who have given up their youth, their 
health, their limbs and a portion of their minds for our freedom.
    The Veterans of Foreign Wars strongly supports Mandatory Funding 
for VA Health Care by our elected representatives from Illinois. H.R. 
515 and S. 331.

    Senator Obama. Thank you very much. We appreciate it, Mr. 
DiGrazia.
    Next, we have Dr. Jeanne Douglas, who's Team Leader of the 
Vet Center in Oak Park, IL.
    Dr. Douglas.

         STATEMENT OF DR. JEANNE DOUGLAS, TEAM LEADER, 
                    VET CENTER, OAK PARK, IL

    Dr. Douglas. Thank you for asking me to speak today. It's 
been informative already. I have learned a great deal.
    The Department of Veterans' Affairs Readjustment Counseling 
Service, that is Vet Centers, was established in 1979 under the 
Public Law 9622, to address the readjustment needs of Vietnam 
veterans. Additional legislation extended program eligibility 
to veterans of other combat theaters and to veterans who 
experienced sexual trauma as a result of their military 
service.
    Vet Centers are traditionally located in communities to 
provide access to veterans in a setting that is as stress-free 
as possible. There are currently 207 Vet Centers in the United 
States and Puerto Rico.
    The Oak Park, IL Vet Center was opened in January 1980, and 
offers services to veterans who live on the Westside of Chicago 
and Cook County, extending through the far western communities 
in Kane, Dekalb and DuPage Counties. Our staff consists of five 
mental health professionals, including veterans from Vietnam 
and Operation Desert Storm.
    We are currently located at 155 South Oak Park Avenue, in 
Oak Park. Our Vet Center provides direct clinical services to 
combat veterans and veterans who have experienced sexual trauma 
and harassment.
    These clinical services may include individual, group, 
marital or family therapy. In addition, we provide outreach to 
homeless veterans, employment assistance to underemployed and 
unemployed veterans, referrals to veterans seeking disability, 
education for community mental health professionals, prerelease 
planning for incarcerated veterans, bereavement counseling for 
family members, and we are present at programs for returning 
OIF veterans and their families.
    Our area covers an array of ethnic and racial compositions 
and includes a wide variety of social economic conditions. It 
is our intent to understand the needs of veterans from 
different backgrounds, so our services reflect our efforts to 
engage our clients with openness and sensitivity.
    Therefore, we have worked hard to become part of a network 
of services that reach veterans in our community, creating a 
continuum of care that provides medical, dental, optical 
services, employment, legal and housing assistance, benefits 
and educational information, as well as a full range of 
psychological and trauma counseling.
    We have been able to do this through collaborative 
relationships with the Veterans Health Administration, the 
Veterans Benefits Administration, Illinois Department of 
Veterans' Affairs, County health departments, County veterans 
assistance offices and veterans service organizations. These 
all help us to ensure a quality lifestyle for returning 
veterans.
    In addition, there are four other Vet Centers in the 
Chicago metropolitan area; one in Beverly, Evanston, and 
Chicago Heights, and in Merrillville, IN. The staff at all five 
Vet Centers work well together planning citywide events, such 
as the upcoming Supermarket of Veteran Services, Stand downs 
and various educational opportunities for our staff.
    We are able to share tasks when we need representation at 
National Guard and Reserve events, or to provide a presence at 
job fairs, health fairs, or school programs. This team effort 
makes it possible for us to direct veterans to the most 
convenient and appropriate facility to meet their needs.
    Since the Oak Park Vet Center opened, we have served over 
12,000 veterans and their families. In fiscal year 2004, we 
provided over 4,400 visits and, to date, in 2005, we have 
provided 3,600 visits to veterans. We are actively serving 
service members who are returning from the global war on 
terrorism and their families, by providing briefings and 
materials upon their unit's requests.
    Returning soldiers are briefed on programs provided by the 
Vet Center and about the potential impact of deployment on 
individuals and families. We provide monthly briefings to the 
ADH RRC in Forest Park, to the General Jones Armory, to 
Northwest Armory, and to North Riverside Armory. We also 
facilitate monthly support groups for family members of 
deployed service members.
    Our collaboration with family support representatives 
ensures that the Oak Park Vet Center is involved in addressing 
the readjustment needs of returning service members. Thank you.
    [The prepared statement of Jeanne Douglas follows:]

  Prepared Statement of Dr. Jeanne Douglas, Team Leader, Vet Center, 
                              Oak Park, IL

    My name is Dr. Jeanne Douglas, PhD, team leader of the Oak Park, 
Illinois Vet Center. Thank you for taking my testimony, I am honored to 
be here and provide testimony pertaining to the operations of the Oak 
Park, Illinois Vet Center.
    The Department of Veterans' Affairs, Readjustment Counseling 
Service (Vet Centers) was established in 1979 under Public Law 96-22 to 
address the readjustment needs of Vietnam veterans. Additional 
legislation extended program eligibility to veterans of other combat 
theaters, and to veterans who experience sexual trauma as a result of 
their military service. Vet Centers are traditionally located in 
communities to provide access to veterans in a setting that is as 
stress-free as possible. There are currently 207 Vet Centers in the 
United States and Puerto Rico.
    The Oak Park, Illinois Vet Center was opened in January of 1980 and 
offers services to veterans who live on the Westside of Chicago and 
Cook county extending through the far western communities in Kane, 
DeKalb and DuPage Counties. Our staff consists of five mental health 
professionals including veterans from Vietnam and Operation Desert 
Storm. Currently located at 155 South Oak Park Avenue, Oak Park, 
Illinois 60302, our Vet Center provides direct clinical services to 
combat veterans and veterans who have experienced sexual trauma and 
harassment during their time in the military. These clinical services 
may include individual, group, marital or family therapy. In addition, 
we provide outreach to homeless veterans, employment assistance to 
underemployed and unemployed veterans, referrals to veterans seeking 
disability, education for community mental health professionals, pre-
release planning for incarcerated veterans, bereavement counseling for 
family members, and we are present at programs for returning OIF 
veterans and their families. Our catchment area covers an array of 
ethnic and racial compositions, and includes a wide variety of social 
economic conditions. It is our intent to understand the needs of 
veterans from different backgrounds so our services reflect our efforts 
to engage our clients with openness and sensitivity. Therefore, we have 
worked hard to become a part of a network of agencies that reach 
veterans in our community, creating a continuum of care that provides 
medical, dental, optical services: employment, legal, and housing 
assistance; benefits and educational information and a full range of 
psychological and trauma counseling. We have collaborative 
relationships with the Veterans Health Administration (VHA), the 
Veterans Benefits Administration (VBA), County Health Departments, 
County Veterans Assistance offices, and veteran's service organizations 
to help us as we work to ensure a quality lifestyle for all returning 
veterans.
    In addition, there are four other Vet Centers in the Chicago 
Metropolitan area (Beverly, Evanston and Chicago Heights in Illinois; 
Merriville, Indiana). The staff at all five Vet Centers work well 
together planning city wide events such as the upcoming Supermarket of 
Veterans Services, Standdowns, and various educational opportunities 
for our staff. We are able to share tasks when we need representation 
at National Guard and Reserve events or to providing a presence at job 
fairs, health fairs, or school programs. This Vet Center team effort 
makes it possible for us to direct veterans to the most convenient and 
appropriate facility to meet their needs.
    Since the Oak Park Vet Center opened, we have served over 12,000 
veterans and their families. In fiscal year 2004, we provided over 4453 
visits, and in fiscal year 2005, we have provided over 3612 veteran 
visits. We are actively serving service members who are returning from 
the Global War on Terrorism and their families by providing briefings 
and materials upon their unit request. Returning soldiers are briefed 
on programs provided by the Vet Center, and about the potential impact 
of deployment on individuals and families. We provide monthly briefings 
to the 88th RRC (Forest Park, IL), to General Jones Armory, to 
Northwest Armory, and to North Riverside Armory. We also facilitate 
monthly support groups to family members of deployed service members. 
Our collaboration with family support representatives ensures that the 
Oak Park Vet Center is involved in addressing the readjustment needs of 
returning service members.
    Again, thank you for taking my testimony pertaining to the service 
delivery of the Oak Park, Illinois Vet Center.

    Senator Obama. Thank you very much, Doctor.
    Next, Mr. Hetrick, Director of VA Hines Hospital.

             STATEMENT OF JACK HETRICK, DIRECTOR, 
                       HINES VA HOSPITAL

    Mr. Hetrick. Thank you, Senator Obama and Members of the 
Committee. I appreciate the opportunity to appear before you 
today regarding your question, ``Is VA prepared to meet the 
needs of our returning veterans?'' I can address that question 
as it relates to the Edward Hines, Jr. VA Hospital.
    The Edward Hines, Jr. VA Hospital is located 12 miles west 
of downtown Chicago and offers primary, extended and specialty 
care, and serves as a care referral center for a network of VA 
hospitals in the area. Hines represents the entire spectrum of 
VA health care and clinical programs. Specialized clinical 
programs include blind rehabilitation, spinal cord injury, 
neurosurgery, radiation therapy, and cardiovascular surgery.
    Nearly 512,000 patient visits occurred in fiscal year 2004, 
providing care to 52,647 unique veterans, primarily from Cook, 
DuPage and Will Counties. So far this year we have provided 
care to 6 percent more veterans than we did last year at this 
time.
    Hines offers the full spectrum of mental health services, 
including inpatient, outpatient, psychiatric care, post-
traumatic stress disorder program, and a homeless chronically 
mental ill program which outreachs to homeless veterans in the 
Chicago area. Hines provides mental health service at all of 
its seven community-based clinics.
    Through initiatives such as advanced clinical access, Hines 
is committed to providing timely and accessible care to our 
veterans. All priority veterans who request a primary care 
visit and are new enrollees are being scheduled for an 
evaluation by a primary care provider within 30 days of the 
veteran's requested date.
    Hines providers support UBA process by providing timely 
compensation and pension, often called C&P, examinations by 
consistently staying within VHA time standards, 35 days. To 
make certain we never take for granted our current veterans or 
returning veterans, I recently established an awareness program 
entitled ``It's all about the Vet'' at the Hines VA. That was 
designed to reconnect each employee at Hines with our mission 
to care for veterans. Hines Hospital staff and veteran 
volunteers served as instructors for the class. At the end of 
the program, each employee was challenged to write down how 
they individually contribute to our mission.
    Hines is committed to ensuring a smooth transition from DOD 
health care to VA health care for Chicago area soldiers 
returning from Iraq and Afghanistan. As part of VA's seamless 
transition process, Hines has increased the number of outreach 
activities to returning service members and new veterans, 
including Reserve and National Guard units. In fiscal year 
2004, Hines saw 308 OIF/OEF patients, and we expect to exceed 
this number this year, as we have already treated 290 of these 
patients in the first 9 months of this fiscal year.
    Hines has a special office set up to coordinate activities 
locally and to assure that health care needs of the newest 
veterans are fully met. Hines has made a commitment to assure 
the returning OIF/OEF veterans have full and timely access to 
mental health care. We are able to schedule returning Iraqi 
veterans for a mental health evaluation immediately upon 
request, and have established a special support group 
specifically for veterans returning from Iraq with post-
traumatic stress disorder issues.
    Many service members returning from combat with severe 
injuries require extensive hospitalization and rehabilitation. 
Since Hines offers specialized services not provided by DOD in 
this region of the country, we have received a number of active 
duty soldiers for spinal cord injury rehabilitation and blind 
orientation and mobility.
    Presently in the Hines Blind Rehabilitation Program, a 
young OEF OIF active duty soldier that was blinded in combat is 
undergoing intense rehabilitation. When I met this soldier, he 
told me how committed he was to learn how to deal with his 
condition. He went on to say he has researched blind rehab 
programs available around the country, and determined that 
Hines was the best and that was where he wanted to go.
    In our spinal cord injury program, we recently received 
another active duty service member injured stateside. His home 
is outside the Chicago area. His wife accompanied him to be 
with him during this critical period. Knowing their home was 
outside the Chicago area, our social work staff offered 
assistance in finding a place for her to stay and continues to 
follow up to show her that we will help in any way possible.
    The importance of these two programs was spotlighted this 
past May 20, when Secretary Nicholson was on hand to dedicate 
two new state-of-the-art buildings to serve our blind 
rehabilitation and spinal cord injury programs. These two new 
facilities will allow us to continue the fine tradition of high 
quality care for these two special needs programs.
    I will say in summary, the staff at the Hines VA Hospital 
works extremely hard to provide top quality health care to all 
of our veterans. Our patient satisfaction scores are a direct 
reflection of this commitment and hard work. Over the past 3 
years, our inpatient satisfaction scores have consistently been 
on the rise, with the majority of our patients rating their 
overall care as excellent or very good.
    The first half of this year, we had served over 47,000 
unique veterans as outpatients. During this first quarter of 
fiscal year 2005, our overall patient satisfaction scores was 
in the top 10 scores nationwide.
    We are proud of this first rate health care we provide 
America's veterans and are fully committed to meeting this 
challenge in the future. I believe the Hines VA Hospital has 
demonstrated and can promise that we are prepared to meet the 
needs of returning veterans. Thank you, Senator, and this 
concludes my formal remarks.
    [The prepared statement of Jack Hetrick follows:]

    Prepared Statement of Jack Hetrick, Director, Hines VA Hospital

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before you today regarding your question, ``Is 
the VA Prepared to Meet the Needs of Our Returning Vets.'' I can 
address this question as relates to the Edward Hines Jr. VA Hospital.
    The Edward Hines, Jr. VA Hospital is located 12 miles west of 
downtown Chicago and offers primary, extended and specialty care and 
serves as a tertiary care referral center for a network of VA hospitals 
in the area. Hines represents virtually the entire spectrum of VA 
healthcare and clinical programs. Specialized clinical programs include 
Blind Rehabilitation, Spinal Cord Injury, Neurosurgery, Radiation 
Therapy and Cardiovascular Surgery. The hospital also serves as the 
area's hub for pathology, radiology, radiation therapy, human resource 
management and fiscal services. Hines currently operates 472 beds and 
seven community-based outpatient clinics (CBOC) in Oak Park, Manteno, 
Elgin, Oak Lawn, Aurora, LaSalle, and Joliet. Nearly 512,000 patient 
visits occurred in fiscal year 2004, providing care to 52,647 veterans, 
primarily from Cook, DuPage and Will counties. So far this year, we 
have provided care to 6 percent more veterans than we did last year at 
this time.
    Hines offers the full spectrum of mental health services, including 
inpatient and outpatient psychiatric care, Post-Traumatic Stress 
Disorder Program, and a Homeless Chronically Mentally Ill Program, 
which outreaches to homeless veterans in the Chicago area. Hines 
provides mental health services at all of its seven CBOCs.
    Through initiatives such as Advanced Clinical Access (ACA), Hines 
is committed to providing timely and accessible care to our veterans. 
All priority veterans who request a primary care visit and are new 
enrollees are being scheduled for an evaluation by a primary care 
provider within 30 days of the veteran's requested date. Hines 
providers support the VBA process by providing timely compensation and 
pension (C&P) examinations by consistently staying within the VHA time 
standard of 35 days. To make certain we never take for granted our 
current veterans and returning veterans, I recently established an 
awareness program entitled ``It's All About the Vet at the Hines VA'' 
that was designed to reconnect each employee at Hines with our mission 
to care for veterans. Hospital staff and veteran volunteers served as 
instructors for the class. At the end of the program each employee was 
challenged to write down how they individually contribute to our 
mission.
    Hines is committed to ensuring a smooth transition from DoD 
healthcare to VA healthcare for Chicago-area soldiers returning from 
Iraq and Afghanistan. As part of VA's seamless transition process, 
Hines has increased the number of outreach activities to returning 
service members and new veterans, including Reserve and National Guard 
units. In fiscal year 2004, Hines saw 308 OIF/OEF patients and we 
expect to exceed this number this year as we have already treated 290 
of these patients through the first 9 months of this fiscal year. Hines 
has a special office set up to coordinate activities locally and to 
assure that the health care needs of the newest veterans are fully met. 
Hines has made a commitment to assure that returning OIF/OEF veterans 
have full and timely access to mental health care. We are able to 
schedule returning Iraqi veterans for a mental health evaluation 
immediately upon request and have established a special support group 
specifically for veterans returning from Iraq with post-traumatic 
stress disorder issues.
    Many service members are returning from combat with severe 
injuries, requiring extensive hospitalization and rehabilitation. Since 
Hines offers specialized services not provided by DoD in this region of 
the country, we have received a number of active duty soldiers for 
spinal cord rehabilitation and blind orientation and mobility. 
Presently in the Hines Blind Rehabilitation program, a young OEFIOIF 
active duty solider that was blinded in combat is undergoing intense 
rehabilitation. When I met this soldier he told me how committed he was 
to [earn how to deal with his condition. He went on to say that he 
researched Blind Rehab programs available around the country and 
determined that Hines was the best and that is where he wanted to go. 
In our Spinal Cord Injury program we recently received another active 
duty service member injured stateside. His home is outside the Chicago 
area and his wife accompanied him to be with him during this critical 
period. Knowing their home was outside the Chicago area; our Social 
Work staff offered assistance in finding a place for her to stay and 
continues to follow-up to assure her we will help in anyway possible.
    The importance of these two programs was spotlighted this past May 
20th when Secretary Nicholson was on hand to dedicate two new state-of-
the-art buildings that serve our Blind Rehabilitation and Spinal Cord 
injury programs. These two new facilities will allow us to continue the 
fine tradition of high quality care for these two special needs 
programs.
    Hines is fully accredited by the Joint Commission on Accreditation 
of Healthcare Organizations (JCAHO), as well as National Committee for 
Quality Assurance (NCQA), and the Commission on Accreditation of 
Rehabilitation Facilities (CARF).
    VHA's performance measurement system enables us to hold ourselves 
accountable for providing high quality of care for veterans. Hines 
meets or exceeds the private sector benchmarks in industry recognized 
performance measures in the care of heart attacks, heart failure and 
pneumonia. Hines has been recognized as a leader in patient safety and 
has been identified for best practices in JCAHO publications and the 
Annual Patient Safety Forum. For example, the Hines patient safety 
program was recognized in the May 2004 JCAHO publication ``Patient 
Safety'' and in the November 2004 JCAHO publication ``Source''.
    The Secretary of Veterans Affairs has approved and signed an 
enhanced use agreement allowing Catholic Charities of the Archdiocese 
of Chicago to renovate and establish a transitional living center and a 
low-income senior living center that will occupy two previously unused 
buildings on the Hines campus. These two ``Faith Based'' initiatives 
will serve veterans without added cost to the hospital and will 
renovate unused buildings without utilizing limited capital resources.
    In summary, the staff at the Hines VA Hospital works extremely hard 
to provide top quality health care to all our veterans. Our patient 
satisfaction scores are a direct reflection of this commitment and hard 
work. Over the past 3 years our inpatient satisfaction scores have 
consistently been on the rise, with the majority of our patients rating 
their overall care as ``Excellent'' or ``Very Good.'' In the first half 
of this year, we have served over 47,000 veterans as outpatients and 
during the first quarter of fiscal year 2005 our overall outpatient 
satisfaction score was in the top ten scores nationwide. We are proud 
of the first-rate healthcare we provide to America's veterans, and are 
fully committed to meeting this challenge in the future. I believe the 
Hines VA Hospital has demonstrated and can promise that we are prepared 
to meet the needs of returning vets.
    Thank you, Mr. Chairman. This concludes my formal remarks. I 
welcome any questions the Committee Members may have.

    Senator Obama. Good, thank you very much.
    We only have a few minutes left, so I want to just dive in 
on a couple of issues. If we don't get to all of them, the 
Committee may submit some written questions that you can 
respond to in writing.
    Mr. Petrosky, I just want to touch on something that you 
brought up, and I have heard already. As we have seen I think 
from some of the testimony here today, there's a feeling at 
times that the VA's trying to keep people out of the system 
instead of figuring out how to bring them into the system.
    What I am understanding from your testimony is that some of 
our returning veterans have been refused access to the health 
care system in the first 2 years when they are back, despite 
the fact that as I understand it, at least, it doesn't matter 
if you're priority eight or not. In those first 2 years, you 
have uniform unimpeded access to the VA health care system.
    Is that your understanding of what the rules are and, in 
fact, are you saying that despite those rules, certain veterans 
have been turned away?
    Mr. Petrosky. That's right. We have had to at times bring 
that up to the enrollment personnel that, you know, they have 2 
years. We have the individual show his discharge document, and 
the paperwork proceeds on to Georgia so they can get their 
enrollment.
    The problem we see, it's not everyone in the system, but 
certain individuals of VA medical center personnel who turn 
these veterans away. At Westside we have made contact with the 
Chief of MCCR and she has assured us, if you have that problem 
please call her. At the other facilities where we have service 
officers, they take them by the hand down and remind the VA 
medical center personnel of enrollment process for the now 
returning military personnel.
    It's not blatantly done, but enough people have complained 
that they'd like to get into the system and they are told no 
because they are priority eight, and they do not enroll 
priority eight veterans anymore. That is the key of the system 
that categorizes veterans into health care.
    When you've got a priority category, and you already know 
that a certain number of veterans are not going to get into the 
system, you're always going to have people that are not paying 
attention and say you're not eligible instead of going through 
the requirements. That goes back to when priority eight was 
established and when the VA said they are not letting priority 
eight into the system.
    Senator Obama. Right.
    Mr. DiGrazia.
    Mr. DiGrazia. Yes, sir.
    Yes, I agree here with Mr. Petrosky on this. There are 
instances where the veterans come to us and say, I was refused 
medical care because they say I would fit in category eight. We 
usually find out what facility was involved and we contact that 
particular director and assure that this veteran would be taken 
care of.
    What we have a problem with is how many are out there that 
have been refused and just don't go back any more and are 
entitled to this. Now, you know, the 2 year, as we call it, 
scott free of co-pays, that's great. But I think all of the 
employees that address these veterans when they come in should 
be made aware of that. Look at the man's discharge papers, and 
if he qualifies, by God, give it to him. He sure the heck 
earned it. He or she, by the way. I think they earned it.
    Senator Obama. Absolutely.
    Mr. Hetrick, we haven't heard specific complaints of Hines, 
but my assumption is you are making aware and training all your 
personnel to be knowledgeable about the fact that in the first 
2 years of discharge, issues like priority eight don't come 
into play?
    Mr. Hetrick. Absolutely, Senator. I think when we first 
started to see a return, there was initially some confusion 
about eligibility. But as time has moved on and we have become 
better at it, and had more training and appointed seamless 
transition coordinators, that this is really a rare exception 
as opposed to the rule now. Of course, we would strive for no 
exceptions as our goal.
    I think in health care, when anyone presents for care and 
if there's evidence that it's an emergent need, we take care of 
them regardless of asking about eligibility and worry about 
that the next day or as soon as they are able to answer certain 
questions.
    Senator Obama. Dr. Douglas, I have seen some recent 
studies, there was one in the New England Journal of Medicine, 
indicating that up to 17 percent of our veterans returning from 
Iraq will suffer post-traumatic stress disorder. I am just 
wondering, based on your experience at the Vet Center, do you 
think that is an accurate estimate, or is it too high, or too 
low? Do you have any anecdotal sense or statistical sense at 
your center of the degree in which some of the newly returning 
vets are experiencing some of these issues?
    Dr. Douglas. You have to clarify whether you're talking 
about acute PTSD or chronic PTSD. I would assume that the 
numbers for acute PTSD would be quite a bit higher than that.
    Senator Obama. Could you help us with that distinction? 
What is the difference between acute and chronic PTSD?
    Dr. Douglas. Acute would be a person who's having symptoms 
that last 3 to 6 months. Then through treatment, therapy, 
whatever, are able to recover and come back to a normal kind of 
lifestyle. Chronic means someone whose PTSD symptoms are 
disabling.
    Senator Obama. Your impression would be that if it had to 
do with acute symptoms, that the 17 percent number might be a 
little low?
    Dr. Douglas. We were thinking more like 25 to 30 percent 
for acute symptoms.
    Senator Obama. Are these symptoms ones that can be treated 
effectively in sort of an outpatient setting, such as the one 
that you're discussing? They basically need counseling, 
somebody to talk to, work through some of these issues with 
them? Is that accurate?
    Dr. Douglas. Yes. I think it's really important that they 
be treated promptly, so they can be treated at the Vet Centers 
very quickly with medical support from the VA hospitals. What 
we know from the Vietnam era is that it's the delay in 
treatment that causes the long-term difficulties.
    Senator Obama. People feel isolated. They feel lonely. It's 
difficult to make an adjustment. If they don't have a sense 
that there's somebody there to help them return to civilian 
life, then it will actually compound the problem and what could 
have been acute might turn into----
    Dr. Douglas. Exactly.
    Senator Obama [continuing]. Something that ends up being 
chronic.
    Mr. Hetrick, have we started preparing for this influx of 
veterans from Operation Iraqi Freedom?
    Mr. Hetrick. Absolutely, we have. We have been working over 
the past several months to improve our staffing in mental 
health areas, looking at where the workload demands are, and 
making certain that we are prepared to address what we believe 
is going to be a growing number of individuals seeking those 
services. As I said earlier in my testimony, that we have a 
number of programs in place right now that we are dealing with 
folks, but we are getting new referrals on an ongoing basis 
each week. As I said, there's a steady increase and we are 
adjusting accordingly.
    Senator Obama. I guess part of my concern here is last year 
the VA's own special committee on PTSD came to the conclusion, 
and this is a quote, ``The VA does not have sufficient capacity 
to meet the needs of new combat veterans while still providing 
for veterans of past wars.'' Now, Hines by all accounts is 
doing an outstanding job, and you should be congratulated for 
that. But I am concerned with having a static amount of 
resources dealing with more patients. Has the VA to your 
knowledge made any projection for the number of veterans that 
are expected to return from Iraq and Afghanistan in 2006? Are 
they specific to Illinois? Is this data shared with you for 
planning purposes, budgetary purposes, and so forth?
    Mr. Hetrick. I don't recall having seen any specific 
projections related to that for 2006. I am basing more of my 
comments on actual experience and what we believe will continue 
to be a growing demand.
    Senator Obama. How are you dealing with that growing 
demand? Are you getting more money to deal with that growing 
demand? Are you able to staff up or are you having to shift 
resources from some areas to others?
    Mr. Hetrick. Well, I think like, in a complex hospital 
environment that I operate with many different specialized 
programs and a number of--and extended care programs, mental 
health programs, I have to look at everything on an ongoing 
basis to see where the demand is. Wherever I can, I sometimes 
shift resources, regardless of the budget picture, in order to 
meet our growing needs.
    It's not always the answer to add more or spend more money, 
but sometimes we have to shift internally. That's how I have 
been addressing the situation this year, working with our 
mental health providers and leadership in mental health, and 
knowing that this is particular priority. We have been making 
steadily improvements and I know that even, starting in June, 
as of June 1, we have actually narrowed down our appointment 
time to 10 days from request.
    And if you need emergency services, that's taken care of 
right away.
    Senator Obama. Dr. Douglas, the Vet Center's on the front 
lines. Are there things that we should be looking at or 
anticipating, based on what you're seeing on a day-to-day 
basis, that we are not doing now? Improvements that need to be 
made. Areas, in terms of outreach to veterans, bringing them 
in, where we are falling short.
    Dr. Douglas. Well, I think what we are trying to do now is 
very important. We are trying to be present when soldiers 
return so that they are aware of what their opportunities are 
right from the get go, when they return from Iraq.
    We also want to be very present for families. Families take 
a huge amount of the toll, the emotional toll, when a soldier 
is deployed. We want that family to be as strong as possible, 
so that they are able to work with the veteran and whatever 
needs he has.
    Senator Obama. Gentlemen, do you have anything to add on 
this matter?
    Mr. Petrosky. We would like to thank Dr. Douglas for what 
the Vet Centers have done and continue doing so in supporting 
veterans throughout Illinois.
    Yes, they might be told what's available for them when they 
are coming back, but a lot of people have on their mind the 
separation of family and want to get back together. The Vet 
Centers have been very helpful in utilizing that when a 
returning soldier comes home and he doesn't remember, that when 
somebody sends him down there they welcome him with open arms 
to make sure he is taken care of. To give us, service 
organizations, the documentation necessary to support veterans 
in their claims with the VA.
    Senator Obama. Well, if there's nothing further, I just 
want to thank the second panel. You've been extraordinarily 
helpful to us.
    I want to state that the record on this hearing will remain 
open to any Members of the Committee or if Senator Durbin would 
like to submit written questions for the record to the 
witnesses. It's possible that both the witnesses for the first 
panel and the second panel may receive some additional written 
questions and we will then get your responses into the record.
    I appreciate everybody taking the time, and I appreciate 
Chief Judge Kocoras for making these chambers available. Thank 
you very much.
    [Whereupon, at 11:48 a.m., the Committee was adjourned.]
  

                                  <all>

</pre></body></html>
